<html>
<title> - AMERICA'S SCHOOLS: PROVIDING EQUAL OPPORTUNITY OR STILL SEPARATE AND UNEQUAL?</title>
<body><pre>[Senate Hearing 107-479]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-479
 
 AMERICA'S SCHOOLS: PROVIDING EQUAL OPPORTUNITY OR STILL SEPARATE AND 
                                UNEQUAL?
=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON



EXAMINING EDUCATIONAL EQUITY AND RESOURCE ADEQUACY AMONG PUBLIC SCHOOL 
                    SYSTEMS WITHIN AND AMONG STATES

                               __________

                              MAY 23, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions












                       U. S. GOVERNMENT PRINTING OFFICE
79-941                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio
           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director







                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                         Thursday, May 23, 2002

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     8
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Vermont, opening statement.....................................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     4
Fattah, Hon. Chaka, a Representative in Congress from the State 
  of Pennsylvania, prepared statement............................    14
Text of proposed bill submitted by Rep. Chaka Fattah.............    17
Isakson, Hon. Johnny, a Representative in Congress from the State 
  of Georgia, opening statement..................................    47
Wellstone, Hon. Paul D., a U.S. Senator from the State of 
  Minnesota, opening statement...................................    49
Catchpole, Judy, State Superintendent of Public Instruction, 
  Cheyenne, WY, prepared statement...............................    60
Price, Hugh B., President, and Chief Executive Officer, National 
  Urban League, New York, NY, prepared statement.................    65
Rebell, Michael A., Executive Director and Counsel, Campaign for 
  Fiscal Equity, New York, NY, prepared statement................    74
Lang, Mary-Beth, Teacher, Bridgeport, CT, on behalf of the 
  National 
  Education Association, prepared statement......................    85


 AMERICA'S SCHOOLS: PROVIDING EQUAL OPPORTUNITY OR STILL SEPARATE AND 
                                UNEQUAL?

                              ----------                              


                         THURSDAY, MAY 23, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m., in 
room 
SD-430, Dirksen Senate Office Building, Hon. Christopher J. 
Dodd presiding.
    Present: Senators Kennedy, Dodd, Wellstone, and Enzi.

        OPENING STATEMENT OF SENATOR CHRISTOPHER J. DODD

    Senator Dodd [presiding]. The hearing will come to order.
    Good morning, everyone, and thank you for joining us here 
this morning at our hearing on ``America's Schools: Providing 
Equal 
Opportunity or Still Separate and Unequal?''
    I am pleased that my colleague and friend from Wyoming is 
here with us this morning, and pleased as well to recognize our 
two distinguished colleagues from the other body--my good 
friend Chaka Fattah, whom I have admired immensely for many, 
many years, and Johnny Isakson, we are delighted to have you 
here as well. We do not know each other as well, but I know of 
you, and I am delighted that you could take some time to be 
with us this morning.
    The way we will proceed is that I will open with some 
comments, turn to my colleague from Wyoming for any opening 
comments he may have, and then turn to our colleagues for their 
testimony.
    Just to let you know, Superintendent Catchpole, we will 
probably call on you first on the second panel, because Senator 
Enzi has to leave, and we want to give him the opportunity to 
hear you.
    Again, thanks to all of you for joining us in this very 
important discussion. I have put a chart up here which shows 
the difference in quality of schools available to rich and poor 
students in developed nations.
    As you can see from the chart, regretably, our country 
ranks at the very bottom of all industrialized nations in that 
differential. So I am interested in hearing the thoughts of 
witnesses on how we can address this.
    Last year, Democrats and Republicans worked very closely 
with the President to pass the ``No Child Left Behind Act,'' to 
hold schools accountable for closing the achievement gap for 
low-income students, minority students, limited English-
proficient students, and students with disabilities, to hold 
schools accountable for all students performing at a very high 
level.
    There is no more important goal to our Nation's future than 
ensuring that every child has the opportunity through education 
to reach his or her potential as an individual and as a citizen 
of our great country. But today, we are going to hear that the 
Federal Government and State governments are not doing their 
part to help our country's children reach that goal.
    It is all well and good for us to hold schools 
accountable--we should--but we and States must also be 
accountable. It is not enough just to ask parents and students 
to do more; every part of society must contribute and be held 
to a standard if we are going to improve the quality of 
education.
    Nearly 50 years ago, the Supreme Court in the landmark case 
of Brown v. Board of Education, said that the American promise 
of equal opportunity was empty without equal educational 
opportunity. That 9-to-0 decision, I think, reflects the view 
of an overwhelming majority of Americans.
    But today to a great extent, whether an American child is 
taught by a high-quality teacher in a small class, has access 
to the best courses and instructional materials, goes to school 
in a new, modern building, and otherwise benefits from the 
educational resources that have been shown to be essential to a 
quality education still depends on where the child's family can 
afford to live.
    Today, low-income, minority, urban and rural children do 
not have equal educational opportunity, so that for many of 
them, the American promise is empty. This is simply 
unacceptable. Regardless of one's ideology, regardless of one's 
political persuasion, it ought to be as we enter the 21st 
century totally unacceptable that we would say to a child in 
America that your opportunity to succeed and to contribute to 
your family and this Nation depends upon the economic 
circumstances into which you were born.
    It is unacceptable that our schools, which must prepare 
students to succeed in the 21st century, are still being 
financed by a system that is rooted in the 19th century.
    It is unacceptable that a country which purports to make 
education its top domestic priority devotes less than 2 percent 
of its total Federal budget to education from K through 12.
    That is why the Senate last year voted overwhelming to 
support an amendment that Senator Collins of Maine and I 
offered which authorized full funding of Title I in elementary 
and secondary education. I think it is why the Senate as well, 
with bipartisan support, voted to finally meet the goal that 
Congress and the President set some 27 years ago to fully fund 
the Federal share of the Individuals with Disabilities 
Education Act.
    That is why I offered the amendment, which I would not have 
thought would be so controversial in 2001, to ensure 
comparability of educational resources within States, which is 
already required within school districts, by the way. The law 
says that within a school district, there must be comparable 
educational opportunity. We also set a standard at the national 
level saying that schools have got to do more. But, we have 
left out the States as far as accountability for achieving 
those goals.
    Although the amendment did not pass, more than 40 of our 
colleagues recognized that a system which, according to the 
World Economic Forum's 2001-2002 Global Competitiveness Report, 
ranks us last among developed nations in the difference in the 
quality of schools available to rich and poor students, must be 
changed.
    One reason Democrats were able to work so closely with the 
President last year was that he assured us that he agreed with 
us that neither reforms nor resources alone, but reforms and 
resources together, were the keys to helping schools provide 
our children with the education they need and deserve.
    But this February, just a few weeks after he signed the No 
Child Left Behind Act, the President released his education 
budget, and the resources were not there--far from it. In fact, 
the President's budget would take a giant step backward by 
reducing Federal support for education reforms, including for 
hiring and training quality teachers, after-school programs, 
bilingual programs, and helping schools stay safe and drug-free 
at the same time as it would siphon nearly $4 billion from low-
income public schools for private school vouchers.
    The budget would serve only 40 percent low-income children 
under Title I. Instead of joining the bipartisan effort to 
fully fund special education, the budget would provide an 
increase which, if we provided the same increase every year, 
would never fully fund special education.
    Even though we are facing a shortage of 2 million teachers, 
and the President spoke in his State of the Union Address of 
the importance of a high-quality teacher in every classroom, 
the budget would eliminate high-quality training programs for 
nearly 20,000 teachers in this country.
    When you say that you are going to leave no child behind, 
that comes with responsibilities as well. But the President's 
budget does not meet those responsibilities, and it would leave 
millions of children, unfortunately, behind.
    Holding schools to high standards of student achievement is 
extremely important, but it is not the same as reaching those 
standards. If we do not make sure that every school has the 
tools that it needs--and we are going to hear today that many 
schools do not have those tools--we will be like parents with 
two children, telling them they expect both of them to work 
hard and do well in school but that they will only help one of 
them with their homework, will only allow one of them to use 
the family's encyclopedia or computer, and will only allow one 
of them to study in a warm room while the other must study in 
the unheated basement.
    I know that States have made some progress over the years 
in leveling the playing field and that they are facing terrific 
budgetary pressures themselves, and I know that the Federal 
Government is facing its own deficits instead of surpluses--
although in large part, that is because the President made a 
choice to place a higher priority on tax cuts for the 
wealthiest Americans than on educational resources.
    But providing enough resources for education should not be 
a choice. We do not and we should not ever say that we would 
like to do more about national security, but times are tough. I 
do not think we can accept that argument for education, either. 
In fact, when times are tough, increasing our investment in 
education may be one of the best things we can do for long-term 
economic strength and recovery.
    According to a recent report from the Alliance for 
Excellence in Education, if African Americans and Hispanic 
Americans went to college at the same rate that whites do in 
this country, our gross domestic product would increase by $231 
billion, and our tax revenues would increase by some $80 
billion. Obviously, that is not going to happen without equal 
educational opportunity in our K through 12 schools.
    Almost 40 years ago, President Kennedy asked whether any 
American would be content, and I quote: ``to have the color of 
his skin changed and stand in the place'' of African Americans 
who, among other things, could not send their children to the 
best public schools.
    Today, for different reasons, we are asking a similar 
question about low-income Americans, minorities, urban and 
rural Americans, and I have no doubt that the answer is the 
same.
    So I look forward to hearing from our witnesses this 
morning and having a good conversation on what we need to do to 
achieve equality in educational opportunity for all of our 
children in this country as we begin the 21st century.
    With that, let me turn to my colleague from Wyoming, and 
then we will begin with our witnesses.
    Senator Enzi.

           OPENING STATEMENT OF SENATOR MICHAEL ENZI

    Senator Enzi. Thank you, Mr. Chairman.
    I am pleased to be here this morning to discuss the role of 
the Federal Government in ensuring educational equity within 
State and local school districts, and I would like to take this 
opportunity to welcome all of the witnesses. I am especially 
pleased that we are joined by Congressman Johnny Isakson from 
Georgia. During our service together on the Web-Based Education 
Commission, I came to greatly respect Congressman Isakson's 
expertise on this issue of education, and I am sure he will be 
able to share some valuable information with us today. He is 
former chairman of the Georgia Board of Education and as such 
is uniquely qualified to talk about the role that States play 
in education funding as well as the impact that Federal school 
funding mandates would have on States.
    And of course, I am very honored today to have Wyoming's 
State Superintendent of Public Instruction, Judy Catchpole, 
with us this morning. She is currently serving her second term 
as Wyoming's chief education official, and during her years in 
office, Judy has overseen the implementation of standards-based 
education reform in the State of Wyoming. She has also had to 
deal with the impact of ongoing State legislation over equity 
of school financing, and that has been an ongoing litigation 
battle in our State for 20 years; it is required in our 
Constitution, and when I was in the State legislature, I had an 
opportunity to deal with that a little bit and to see how 
difficult the problem is. I am sure that she will add a 
valuable perspective to our discussions.
    I would mention that 2 weeks ago, there was an article in 
the paper about Maryland taking on full funding of their 
education. I read all those education articles with a great 
deal of fascination and usually learn a tremendous amount from 
them and was very pleased to find that there was mention in 
this article that there are only two States in the entire 
Nation that fully fund education. One of them is Wyoming, and 
the other is Ohio.
    In Wyoming, of course, we do not think that education is 
fully funded, but we are pleased that others know that we have 
made some tremendous strides in that direction.
    The courts have not only been involved in the litigation, 
but the Supreme Court Justices provide oversight to the 
legislature. We are not sure constitutionally how that all 
works out, and they are considering some constitutional 
amendments in that regard as well.
    I will say that I usually go home to Wyoming on the 
weekends. I head out on Friday, and if I can get there early 
enough, I stop in and visit some schools. I knew that Wyoming 
had quite a diversity of schools, how rural they are and the 
size of the schools, but I have come to know that a little bit 
better.
    We have one school district that is half the size of Rhode 
Island, and I had the opportunity one afternoon to address 
every student in that district--all 111 of them. We have some 
bigger districts, but our biggest city is 52,253 people--not 
that we are keeping track exactly--but that is a much smaller 
school district in terms of number of students than most--our 
total population is smaller than the size of most districts.
    We have gone for distance learning. We have found that we 
have not even been able to define the word ``equity'' very well 
yet. Does that mean equity of dollars, equity of buildings, 
equity of course offerings? Course offerings are very 
important. If you have a high school that has nine students in 
it, they want to have the same access to a variety of languages 
that the large schools have. When you are trying to fund 
sports, it is a different problem. So there are a whole variety 
of costs that begin with how students get to school.
    We have provided this little formula in Wyoming that no 
grade school child should be on the bus for longer than an hour 
each way. It is hard to do. It means that you have some very 
small schools. Some schools at times have one to three students 
in them. So if you are providing an equity of funding per 
student, you cannot begin to fund that school.
    So I am always fascinated with these discussions, 
particularly when we get to the Federal level, because I always 
contend that a one-size-fits-all mandate is not going to work 
very well for my State, and I am pleased to be here to watch 
out for my State and other areas that have rural problems like 
I mention.
    The issue that we are here to discuss today is what role, 
if any, the Federal Government has in determining the manner in 
which States finance education. As we look at this issue in 
depth, we must remember that the Federal Government provides 
only 9 percent of necessary funding for education. We will all 
take note that this percentage has risen from 7 percent a few 
years ago, thanks to President Bush's commitment to education. 
States and communities contribute the rest of the necessary 
funding for education.
    While the Federal investment is critically important to our 
Nation's neediest students, we must not forget that this 
investment should not allow the Federal Government to take 
control over what has always been a State and local function.
    I want to thank you for holding this hearing, Mr. Chairman. 
I am pleased that we will have an opportunity to examine the 
implications of extending unprecedented Federal control into 
our Nation's schools. At the end of the day, I hope we can 
agree that the Federal Government must continue to target our 
resources to the students who are most in need, while resisting 
the urge to interfere with ongoing school financed litigation 
based on individual State constitutions.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Mike Enzi follows:]

                Prepared Statement of Senator Mike Enzi

    Thank you Mr. Chairman. I am pleased to be here this 
morning to discuss the role of the Federal Government in 
ensuring educational equity within States and local schools 
districts. I would like to take this opportunity to welcome all 
of our witnesses. I am especially pleased that we are joined by 
Congressman Johnny Isakson from Georgia. During our service 
together on the Web-Based Education Commission I came to 
greatly respect Congressman Isakson's expertise on the issue of 
education. I am sure he will be able to share some valuable 
information with us today. As the former Chairman of the 
Georgia Board of Education, he is uniquely qualified to talk 
about the role that States play in education financing, as well 
as the impact that Federal school funding mandates would have 
on States.
    I am also honored to have Wyoming's State Superintendent of 
Public Instruction, Judy Catchpole, with us this morning. Judy 
has been involved with children throughout her life as an 
educator, an advocate and a public servant. She is currently 
serving her second elected term as Wyoming's chief education 
official. During her years in office Judy has overseen the 
implementation of standards based education reform in the State 
of Wyoming. She has also had to deal with the impact of ongoing 
State litigation over school financing. I am sure she will add 
a valuable perspective to our discussions.
    The issue that we are here today to discuss is what role, 
if any, the Federal Government has in determining the manner in 
which States finance education. While we all understand that 
the primary reason the Federal Government first became involved 
in education was to ensure that traditionally underserved 
students receive an equal education, we must also remember that 
States and local school districts shoulder the primary 
responsibility for providing an education to our Nation's 
students. The Federal Government only provides about 9 percent 
of the necessary funding for education. You will all take note 
that this percentage has risen from between 6 percent to 7 
percent a few years ago thanks to President Bush's commitment 
to education. States and communities contribute the rest of the 
necessary funding for education. While the Federal investment 
is critically important to our Nation's neediest students, we 
must not forget that this investment should not allow the 
Federal Government to take control over what is properly a 
State and local function.
    As a former State legislator I have some experience with 
this issue since my home State of Wyoming has been involved in 
school funding lawsuits since the early 1980s. In fact, in 1995 
the Wyoming Supreme Court found that Wyoming's State 
constitution established education as one of the States' top 
priorities. The court even went so far as to provide remedial 
guidelines to the State legislature for establishing an 
equitable funding system. Earlier this year, after a great deal 
of debate, the Wyoming legislature passed legislation that 
contained an education funding model they hope will satisfy the 
courts concerns.
    While Wyoming's experience provides a striking example, 
there are at least 43 other States that have been involved in 
some type of school finance litigation. The issue of equalizing 
school finances has clearly gained the attention of States 
across the Nation and it is being dealt with. This is why I, 
and many of my colleagues on this side of the aisle, feel that 
there is no role for the Federal Government in this area.
    I would also like to point out that while resources are 
important, we must also remember that simply giving schools 
more money doesn't equal a better education for our students. 
Research from the American Legislative Exchange Council 
indicates that there is no clear correlation between Federal 
spending on education and student achievement. According to 
their Report Card on American Education, per pupil expenditures 
have increased by more than 22.8 percent in inflation adjusted 
dollars over the past two decades nationwide, yet 69 percent of 
American eighth graders are still performing below proficiency 
in reading according to the 1998 National Assessment of 
Educational Progress. Clearly, improving academic achievement, 
and ensuring the future success of disadvantaged students, is 
not as simple as providing more money.
    Finally, I would like my colleagues to remember that the 
Federal Government does not fund education with the goal of 
creating equity. The Federal Government targets those students 
with the greatest need with the hope that Federal dollars can 
make a real difference in the lives of these students. This 
does not mean that the Federal Government is not concerned 
about making sure that every student learns, however. As all 
the members of this committee are well aware, the ``No Child 
Left Behind Act,'' which was signed into law by President Bush 
earlier this year, already provides a structure to help ensure 
that low-income or minority students are learning at the same 
rate as their peers. We must allow the new reforms in this 
legislation, which are geared towards equity in academic 
achievement, time to work so that we can see if the years of 
work that this committee put into education reform are 
successful.
    I want to thank you for holding this hearing, Mr. Chairman. 
I am pleased that we will have an opportunity to examine the 
implications of extending unprecedented Federal control into 
our Nation's schools. At the end of the day I hope we can agree 
that the Federal Government must continue to target our 
resources to the students who are the most in need, while 
resisting the urge to interfere with ongoing school finance 
litigation based on individual State constitutions.
    Thank you, Mr. Chairman.

    Senator Dodd. Thank you very much, Senator Enzi.
    We have been joined by the chairman of the committee, 
Senator Kennedy, and before turning to him for some comments, I 
just wanted to quote from Linda Darlin-Hammond, a Stanford 
professor, from some studies done. ``The wealthiest 10 percent 
of school districts in the United States spend nearly 10 times 
more than the poorest 10 percent, and spending ratios of 3-to-1 
are common within States. Poor and minority students are 
concentrated in the least-well-funded schools, most of them 
located in central cities or rural areas, and funded at levels 
substantially below those of neighboring suburban districts. A 
recent analysis of data prepared for school finance cases in 
Alabama, New Jersey, New York, Louisiana, and Texas, have found 
that on every tangible measure, from qualified teachers to 
curriculum offerings, schools serving greater numbers of 
students of color have significantly fewer resources than 
schools serving mostly white students.'' That is a serious 
problem.
    Senator Kennedy.

         OPENING STATEMENT OF SENATOR EDWARD M. KENNEDY

    The Chairman. I want to thank Senator Dodd for his 
leadership on this issue of equity and adequacy in terms of 
funding schools. He has been the real leader in terms of 
getting full funding on Title I programs, and I think this 
hearing today is enormously important, and I am grateful to 
him. It is always good to see my friend from Wyoming, Senator 
Enzi, as well.
    Massachusetts, as other States, has written in their 
Constitution the guarantee of education, and it is more 
descriptive. It was written by John Adams. David McCullough, 
the great historian, reminds us that it is more specific in our 
Massachusetts Constitution than any other State in the country.
    Recently, up at the Kennedy Library, we celebrated the 
Profiles in Courage Awards. The first recipient was Carl Elliot 
from Alabama, who understood that the most important civil 
rights issue is education. He was targeted and buffeted about, 
used his whole pension and died impoverished fighting for the 
adequacy of education. This was before Brown v. Board of 
Education. This struggle is almost as old as the country, but 
we passed the Morrill Act because we understood the importance 
of trying to make education available to young people; with the 
GI bill, we tried to make education available; in the early 
1970s, we passed the Pell Grant programs, understanding that 
people in need should receive a helping hand in order to 
continue their education.
    And now, with all respect to this administration, we have 
passed the No Child Left Behind Act, which I support and take 
pride that we were able to do it with the increased funding 
that we had last year. And we hear a lot of speeches from the 
administration about the increasing funding, yet we find this 
year that school districts and schools have additional 
responsibilities and fewer and fewer resources from us.
    Not only are there fewer resources, but there are appalling 
inequities, which is what this hearing is really all about--
adequacy and equity--both are the challenge. Today, under the 
leadership of Senator Dodd and the excellent witnesses here, we 
are going to remind the American people of the great 
inadequacies and inequities that exist in our society in terms 
of the funding of education.
    I thank the chairman for holding this hearing, and I hope 
we are going to be able to take some action on the issue as 
well.
    I want to particularly welcome our two House members for 
being here, both of whom have spent a good deal of time on this 
issue. I think Mr. Fattah makes more phone calls over here on 
issues of education than anyone has received in recent times, 
but we are always glad to receive them.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Kennedy follows:]

            Prepared Statement of Senator Edward M. Kennedy

    Thank you Congressman Fattah and Congressman Isakson and 
everyone else for coming this morning. And thank you Senator 
Dodd and Congressman Fattah, in particular, for continuing to 
fight for school finance equity and adequacy.
    School finance is the most important civil rights issue in 
education since school desegregation. Last week's anniversary 
of the Brown v. Board of Education case is bittersweet for many 
of us. While undoubtedly, progress has been made in the civil 
rights battle for educational opportunity, in many ways our 
schools fail to meet even the 176-year-old discredited Plessy 
v. Ferguson standard of ``separate, but equal.'' The majority 
of Latino and African American children remain in racially 
isolated schools and remain disproportionately concentrated in 
poorly financed schools.
    In America, the children who need the most that public 
education has to offer too often get the least, while those who 
need the least get the most.
    Inequities in school finance are dispiriting and 
inadequacies in education resources too often are appalling. 
Those who say that investing more money in education makes 
little difference do not send their children to inequitable and 
inadequate schools--schools without books, schools without 
certified teachers, schools in which teachers dip into their 
own pockets for school supplies.
    This is wrong. It is wrong that children in the same town 
are treated differently, just because they go to different 
schools. And the President's budget just makes matters worse.
    The new education reform bill passed only months ago places 
substantial new demands on local schools, teachers, and 
students. Students will be tested on more challenging curricula 
and schools and teachers will be held accountable for results. 
But schools cannot achieve high standards on low budgets. We 
have an obligation to match new education reforms with new 
resources, so that all children will have a fair chance at 
academic success, no matter what school they attend.
    Many of us have been fighting the Administration's latest 
budget that provides no new resources for public school reform, 
that embraces huge additional tax cuts for the wealthy, and 
that diverts public dollars to private schools. We have to win 
the fight for more Federal education resources if we are to 
have any chance at remedying local school inequities and 
inadequacies, any chance at improving education through 
standards-based school reform.
    Educational equity and adequacy is an educational 
imperative, an economic imperative, and a moral imperative. 
Thank you again Senator Dodd and Congressman Fattah for your 
past work on this issue. I look forward to working with you 
both and others in the future on this important area.

    Senator Dodd. Thank you very much, Mr. Chairman.
    We have been joined by Senator Wellstone as well, and 
Senator, if you do not mind, I would like to turn to the 
witnesses and then come back to you so we can get started.
    Senator Wellstone. Fine.
    Senator Dodd. I thank both of you for being here. Senator 
Kennedy is absolutely right about your interest in education, 
Congressman Fattah. I have never known a member who has spent 
as much time focusing on every level of education as you have. 
Your interest in this subject matter goes back to your days 
serving at the local level in Pennsylvania, through now your 
fourth term as a Member of the House of Representatives 
representing the 2nd District of Pennsylvania, which includes 
parts of Philadelphia and Delaware County. You have been a 
leader in innovative education policy, and it is a pleasure to 
have you with us.
    Your colleague, Johnny Isakson, second term, 6th District 
of Georgia, which includes part of Cherokee, Cobb, Fulton, and 
Gwinnett Counties. You are a member of the House Education and 
Workforce Committee and last year were very much a part of the 
conference committee when we dealt with the bill that Senator 
Kennedy has referenced and I have talked about, the No Child 
Left Behind Act.
    We are honored to have both of you here to talk about this 
issue.
    Let me turn to you first, Congressman Fattah, and then 
Congressman Isakson.
    And then, I would like to--because both of you are so 
interested in the subject matter--have you come up here and 
join us after your testimony and listen to the witnesses, 
because obviously, if we are going to talk about solutions, it 
is going to have to come out of both bodies, and it has got to 
be bipartisan. So I invite both of you to stay for a while, or 
as long as you can, to hear the testimony.
    Chaka, thank you.

 STATEMENT OF HON. CHAKA FATTAH, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Fattah. I appreciate that invitation, and I will take 
you up on it.
    I want to thank you for your leadership here in the Senate 
on this issue, both today and on many days prior to this 
morning. And to be here with the full committee chairman--he 
talks about my phone calls--I am glad that he has been here to 
answer so many calls and for our work together on Gear Up, 
which is now benefitting over 1.5 million children in all of 
our States, moving young people through the educational 
pipeline; and to Senator Wellstone, who has a background and a 
continuing interest particularly in this issue and has spoken 
out on it most forcefully.
    Senator Enzi and I served on the Web-Based Education 
Commission, and I know, as he has recounted, that his State, 
with the Clearmont decision and issues going through the courts 
there, has really been leading the country in grappling with 
this issue; but yet still today, there is a lot more than 
remains to be done, both in Wyoming and across the board.
    Mr. Chairman, if I could, I would like to enter into the 
record just a few documents if you would consent. The first is 
a new bill that we have fashioned based on all the comments 
from the Senate debate on the comparability amendment, which 
you were so gracious to offer, from all sides of that issue and 
where we got, as you said, over 40 votes in the Senate, and in 
the House, I offered H.R. 1234, the Equal Protection School 
Finance Act, and we got 183 votes. But from all of the 
dialogue, I have now fashioned some new language that I think 
meets the concerns raised by all parties, and we have presented 
it to the panel. It is going to be entitled the Student Bill of 
Rights, and it articulates the question that was asked of you 
on the Senate floor--what does comparability mean--and we lay 
out seven very specific, fundamental ingredients that are 
needed for a child to learn. They include a fully-qualified 
teacher, and as the President indicated in the State of the 
Union speech, that should really be our goal in terms of 
education reform. It talks about updated textbooks and 
computer-to-student ratio, guidance counselor access, library 
access at the school level.
    These seven fundamentals, we think, answer the question 
about what do children need to adequately live up to their 
potential. What this new language would call for is not Federal 
control. What it would do, however, is call for a report card 
on States to ascertain to what level there is a disparity in 
the provision of these fundamentals in terms of an education 
being provided.
    Let me just tell you that in New York City this morning, 
some 20 percent of the teachers are not certified and not fully 
qualified under State law in New York. In Philadelphia, 50 
percent.
    Senator Dodd. By the way, just to give an idea, I think 
that is around 13,000--is that correct--in New York alone?
    Mr. Fattah. That is correct, and in Philadelphia, we have 
65 percent of what the State says are unqualified teachers in 
one of our 501 school districts. In Chicago, the Chicago Sun-
Times, in its survey discerned that if you happen to be a low-
income student in the City of Chicago, you are 23 times more 
likely to have a teacher who has failed all five of the basic 
skills tests on the Illinois teacher's exam. A recent study 
showed 42,000 spread between cities in California.
    There is a continuing problem of lack of access to 
textbooks. There are schools in our country today with over 
1,000 students who have fewer than 10 computers in the whole 
school building.
    So we have a real problem. And as the Federal Government, 
under the leadership of President Bush, now insists, and I 
think properly so, that students be tested in federally-
mandated tests in every school ever year, I think we have a 
responsibility to ensure that these students have a teacher and 
have textbooks so that they can properly demonstrate to what 
level their potential exists.
    It is inappropriate for us to try to discern whether a 
child can swim if there is no water in the pool for them to 
demonstrate their capability. We have students who go through 
middle and high school never having been taught by a math 
instructor who majored or minored in math.
    I read the Arkansas case last night, where the affidavit 
submitted by Roy King said that he was the only math teacher 
for his whole school district. The problem is that he did not 
major or minor in math. His degree was in physical education. 
He made less than $12,000 a year and made another $5,000 
driving a school bus. And he had four textbooks to offer the 
students.
    There are, throughout our country, these kinds of 
disparities.
    I also want to enter into the record the legislation that 
brought each of our States into the Union, in which there was 
an irrevocable commitment that had to be made in order to 
States to join this Union that they were going to provide for 
public schooling. That is the origin of all these commitments 
listed in these State constitutions. And we have had 
litigation, as your colleague has indicated, in Wyoming for 20 
years, but in many States for many more years, that has yet to 
satisfy the responsibility to provide an adequate education for 
poor students.
    [The documentation was not available at press time.]
    In fact, we have a situation where the students who are the 
most disadvantaged when they show up at the schoolhouse door 
are, in fact, the least likely to have any of what we now know 
to be the fundamental needs in order for them to receive a 
quality education. We talk about low-income students not 
performing well. The truth of the matter is that they are not 
being given an opportunity at all to demonstrate their ability 
to perform.
    So, rather than stigmatize the children, my legislation 
seeks to force States in order to remove themselves from what 
would be a highly public list of States that, under this bill 
as I am going to introduce it, the Student Bill of Rights, 
would be identified as States providing an unequal education, 
that they do something about it. We give them multiple years to 
develop a remedial plan and implement it. We do take your 
suggestion, Chairman Dodd, to penalize them only in the 
outyears, the third year out, if they do not implement a 
remediation plan--just the administrative dollars that 
accompany Federal grants--so that there would be a penalty, and 
there would be some ability to enforce this.
    My legislation would also require some studies. One that I 
think would be important is in the area of defense. We have 
tens of thousands of young people who are volunteering to serve 
in our military but are not capable of passing the academic 
tests administered by the Department of Defense for military 
service. These are students who, when you look at where they 
come from, are coming out of these low-performing schools. The 
Bush administration said just a few days ago that there are 
some 7,000 failing schools in our country. We have to do 
something about this.
    As I conclude, I want to enter into the record a listing of 
findings in these various State equity cases around the country 
where it has been determined that this problem is, in fact, so, 
and I want to read into the record just one of them, the most 
recent, from North Carolina, where the court found that ``The 
clear, convincing and credible evidence presented in this case 
demonstrates that there are many children who are at risk of 
academic failure who are not being provided with an equal 
opportunity to obtain a sound, basic education, as mandated by 
the Constitution of this State.''
    [The documentation was not available at press time.]
    That could be true in any State in our Union this morning, 
and it is impossible for us as a country to move forward in the 
area of education without finally addressing this question of 
how we encourage and require States to provide a more equal 
playing field.
    I want to enter into the record some of the rules that 
accompany some of our professional sports. The NBA has a set of 
rules, and the NHL; all of our teams operate under a system 
that allows competition to take place under a fair process.
    [The documentation was not available at press time.]
    As I spoke to President Bush on this issue, I reminded him 
of his days heading up a baseball team in which all the teams 
come with the same set of rules, and then you can discern what 
someone's ability is, because they are all playing the same 
game by the same set of rules.
    Poor children today and every day that has preceded this 
hearing have been in a situation in which their opportunities 
for a higher education, for a job, for the ability to be 
productive citizens, for their opportunity to assert their 
citizenship and to vote in Federal elections, to serve on 
Federal juries, to be a part of this country, are handcuffed 
from the beginning.
    In Wyoming, the situation is not as bad as in Pennsylvania. 
In the suburban classrooms surrounding Philadelphia, we spend 
$70,000 more per classroom on average than we spend in 
Philadelphia each year for the 12 years of a child's education. 
In Wyoming, that differential is only $37,000 a year.
    But in every State, the poorest of our children are getting 
the least of the resources, and at the end of the day, we 
stigmatize them, and we will further stigmatize them with these 
federally-mandated tests by saying that they somehow not 
measured up, when the truth, we really know. And this hearing 
gives us a louder microphone to speak from, because there is no 
more important legislative body than the U.S. Congress, and 
this is the upper chamber.
    So it is a pleasure to be here. It is not often that 
Members of the House get over here to talk to our colleagues in 
an informal way. I appreciate this hearing, and I hope the 
record this morning will reflect the beginning of a new era of 
reform in which we do not just talk about students being 
accountable, but parents and teachers, and that we say to the 
States, which make every important decision about schools--they 
decide the number of days kids go to school, they decide who is 
certified to teach and who is not, they decide the taxing 
formulations that are used to finance districts, they decide 
how many districts they are going to be. There was a time in 
our country when there were more than 1,000 school districts in 
Arkansas, and one in Hawaii. These are arbitrary decisions made 
by State governments. They decide on property taxes or sales 
taxes or income taxes.
    But however the rules are constructed, somehow, in every 
State, poor kids are left in the shadows. And hopefully, today, 
we will let some sunshine in, and I hope this will be the 
impetus for us to take legislative action to correct this 
without infringing on States' responsibilities, but with those 
responsibilities that States have, there is a responsibility of 
the Federal Government, and that is to ensure that every 
citizen in these United States has an opportunity to what we 
understand to be in the U.S. Constitution, that is, the pursuit 
of life, liberty, and the pursuit of happiness.
    Thank you.
    Senator Dodd. Thank you very much, Congressman. That was 
very, very helpful, and we will have some questions for you in 
a minute.
    I would just note that there was a time when a child in 
Connecticut or Wyoming or Pennsylvania or Georgia may have been 
competing only with a child in other parts of the State, or 
maybe in the neighboring States. But in the 21st century, our 
kids are competing with kids in Beijing and Moscow and Sydney 
and Paris and so on. So we have got to start thinking in the 
context that how well a child is doing in your State, or mine, 
or my friend from Wyoming's, has a direct bearing on all of us. 
The days when we did not have to think about that are long 
past, and we have got to be conscious of the new markets and 
the new realities.
    [The prepared statement and attachments of Hon. Chaka 
Fattah follow:]

                Prepared Statement of Hon. Chaka Fattah
    Thank you, Chairman Kennedy, Ranking Member Gregg, and Senators of 
the committee for providing me the opportunity to lend my voice to the 
debate over the Federal Government's role in improving our Nation's 
education system. I would like to especially take this opportunity to 
express my gratitude to Senator Christopher Dodd who has joined me, 
among others, in the fight to eliminate educational inequities and 
resource inadequacies in our Nation's public school system. It is a 
pleasure to testify before a committee that has recently worked so 
tirelessly to find the right mix of policies and resources in the 
``Leave No Child Behind Act'' necessary to properly educate our 
Nation's young. While I applaud your effort as a first step in the 
right direction, it goes without saying that our work as education 
policymakers is far from complete.
    Today, I am here as a sincere advocate for what I believe is 
missing, both in theory and in practice, from the approach taken in 
H.R. 1 to improving our public school system. To accomplish the goal of 
providing every student with a high quality education, we must act 
decisively to eliminate inequities that exist among public school 
systems within and among States. Therefore, I come here this morning, 
calling upon our Nation's leaders to make certain that all children, 
regardless of income level or place of residency, are provided adequate 
educational resources to become successful members of society. In order 
to accomplish such a fundamental feat, we must require that our 
Nation's public school systems provide all students seven essential 
elements for learning, which include: (a) instruction from a highly 
qualified teacher; (b) rigorous academic standards; (c) small class 
sizes; (d) up-to-date instructional materials; (e) state-of-the art 
libraries; (f) updated computers; (g) qualified guidance counselors.
    Senators, we know that public schools work. They perform 
wonderfully, everyday, for millions of students and parents living in 
more affluent neighborhoods, where abundant resources are readily 
available and invested accordingly in order to assure that their 
children have access to a high quality education. Unfortunately, these 
same opportunities do not exist for the countless number of students 
attending public schools throughout our Nation's rural and urban 
communities. Since a high quality, highly competitive education for all 
students is imperative for the economic growth and productivity of the 
United States, an effective national defense, and to achieve our 
historical aspiration to be one Nation of equal citizens, the call for 
dismantling separate and unequal State public school systems that 
subject millions of equally deserving and aspiring students to inferior 
education and guidance must not go unheeded.
    Therefore, I am preparing to introduce legislation, entitled the 
``Student Bill of Rights,'' which seeks to remedy our country's current 
education anomaly, by holding States accountable for providing every 
student within their jurisdiction equal access to a high quality 
education. As the President's Commission on Educational Resource Equity 
found in 2001, ``A high quality education is essential to the success 
of every child in the 21st century.'' To deny children such 
opportunities or access is, in essence, a denial of their basic right 
to become prosperous and competent adults, not to mention, highly 
intellectual individuals. For it is education that provides us with the 
values and skills necessary for living productive lives. If no child is 
to be left behind, then all children must be given an equal opportunity 
to compete. And that is the underlined objective of the ``Student Bill 
of Rights.''
    The ``Student Bill of Rights'' will require States to certify with 
the Secretary of Education that their Public School System operates on 
an equal statewide basis in terms of offering all students access to 
some of the scientifically proven educational inputs necessary to 
achieve high academic outcomes. For example, according to a report 
published by the National Science Foundation on ``Women, Minorities, 
and Persons with Disabilities in Science and Engineering,'' the unequal 
participation of minorities in science and mathematics education can be 
directly attributed to the differential access to qualified teachers, 
and differential access to resources and curricula emphasizing advanced 
science and math. Moreover, in the President's State of the Union 
Address, President Bush addressed the importance of education reform by 
challenging America to ``provide a qualified teacher in every 
classroom'' as the first building block for real education reform. This 
same concept is embodied in my proposed legislation by requiring that 
States provide all students, suburban and urban alike, with instruction 
from highly qualified teachers in core subject areas of reading, 
mathematics and science. We will find that access to a fully certified 
teacher throughout the duration of a student's learning experience 
significantly increases the chance of reaching the high academic 
standards put forth in ``The Leave No Child Behind Act.''
    In addition to high quality instruction, access to rigorous 
academic standards, curricula, and methods of instruction with respect 
to each school district in a State is unquestionably and fundamentally 
necessary if we are serious about eliminating the achievement gap 
between high performing school districts and those with less impressive 
academic scores. Students of all backgrounds need and deserve to learn 
a foreign language, physics, or calculus. Particularly, those students 
interested in attending an institution of higher education. 
Furthermore, the number and type of advanced placement courses 
available in secondary schools should be comparable across local 
education agencies in order to give every child a fair opportunity to 
succeed. Unfortunately, there is nothing level about the educational 
playing field in America with regard to access to formidable curricula 
and methods of instruction.
    The ``Student Bill of Rights'' recognizes the importance of 
eclucating all students, and specifically disadvantaged students in 
smaller classes. Numerous studies indicate that smaller classrooms 
allow for greater student to teacher interaction and more student 
centered learning. States should make a substantial effort to meet the 
17 or fewer students per classroom guidelines, as recommended by the 
National Center for Education Statistics. My own State of Pennsylvania 
has one of the widest disparities in the Union on this score. While the 
average classroom size is 28 children in the City of Philadelphia, 
surrounding school districts not only boast class sizes of 21 students 
or fewer, but also report higher academic achievement, which is not 
surprising given the levels of inequity. It is particularly regrettable 
that this problem continues in the field of education. Especially since 
the heart and soul of the American system of universal education is the 
desire to give all children the opportunity to succeed and to make the 
most of their talents. Not only is this fair to the children, but we 
know that we will all benefit from a more productive and cohesive 
society where all children have a chance to develop their abilities and 
participate in our economy.
    Lastly, if we are serious about our partnership with State 
governments in the struggle to improve public education, then we must 
make certain that students living in lower income localities enjoy the 
same or comparable resources that have proven to be so beneficial for 
students in more affluent school districts. In addition to the 
principles mentioned previously, States should also make certain that 
they are providing all students equal and adequate access to updated 
textbooks and instructional materials; state-of-the art libraries and 
media centers; up-to-date computers; and qualified guidance counselors. 
Whether individually or collectively, each of these elements make a 
unique contribution to the academic and educational development of a 
child. Failure to provide students with these educational compliments, 
which is indicative of the current state of affairs throughout our 
country, amounts to the perpetuation of a self-reinforcing distribution 
of opportunity in this country which is fundamentally unequal. Under 
such conditions, it is not startling to learn that the achievement gap 
between the poorest school district and the wealthiest school district 
students is becoming increasingly wider.
    Senators, we can no longer allow children from economically 
distressed districts to be consigned to inferior education and unequal 
educational opportunities. If we want our Federal dollars to be 
effective in helping students, we need to make sure that the State is 
not depriving them of the resources they need. Again, at minimum, 
students need instruction from a highly qualified teacher; rigorous 
academic standards; small class sizes; up-to-date instructional 
materials; state-of-the-art libraries; updated computers; and qualified 
guidance counselors. Unfortunately, these seven keys are missing, for 
the most part, from the most troubled public school systems--small 
rural districts and large urban systems serving predominantly poor 
students, some of which spend at a rate higher than the national or 
their State average. Unlike wealthier districts, these LEA's inherit 
dilapidated, under-funded conditions with outdated instructional 
systems, inefficient operating systems, and no systems of 
accountability of any kind. I mention this not only to acknowledge that 
these intolerable conditions exist, but to assert that they must be 
addressed if we are to dispose of the radically differential 
educational achievement among districts in a State.
    In closing, we are not alone in the view that resource equity is an 
important element in improving our schools. In fact, some 70 suits have 
been filed in over 43 States by school districts, along with parents 
and civil rights groups, claiming that not only do current public 
school funding systems perpetuate gross disparities in the resources 
that are available to districts of different wealth, but that they are 
also designed to meet minimum standards rather than providing the high 
quality, world-class education our children need to compete in today's 
global economy. The continual denial of States to provide children 
their due right to an equal and high quality educational experience is 
a blatant contradiction to the landmark ruling in Brown v. Board of 
Education which decreed that ``the opportunity of an education, where 
the State has undertaken to provide it, is a right which must be 
available to all on equal terms.'' Thus, as disparities in resources, 
and more importantly, disparities in outcomes persist, it is clear that 
we have yet to fulfill our duty to the millions of children being 
educated in under-served poorly staffed, and technology-deficient State 
public school systems.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] 79941.001
    
    [GRAPHIC] [TIFF OMITTED] 79941.002
    
    [GRAPHIC] [TIFF OMITTED] 79941.003
    
    [GRAPHIC] [TIFF OMITTED] 79941.004
    
    [GRAPHIC] [TIFF OMITTED] 79941.005
    
    [GRAPHIC] [TIFF OMITTED] 79941.006
    
    [GRAPHIC] [TIFF OMITTED] 79941.007
    
    [GRAPHIC] [TIFF OMITTED] 79941.008
    
    [GRAPHIC] [TIFF OMITTED] 79941.009
    
    [GRAPHIC] [TIFF OMITTED] 79941.010
    
    [GRAPHIC] [TIFF OMITTED] 79941.011
    
    [GRAPHIC] [TIFF OMITTED] 79941.012
    
    [GRAPHIC] [TIFF OMITTED] 79941.013
    
    [GRAPHIC] [TIFF OMITTED] 79941.014
    
    [GRAPHIC] [TIFF OMITTED] 79941.015
    
    [GRAPHIC] [TIFF OMITTED] 79941.016
    
    [GRAPHIC] [TIFF OMITTED] 79941.017
    
    [GRAPHIC] [TIFF OMITTED] 79941.018
    
    [GRAPHIC] [TIFF OMITTED] 79941.019
    
    [GRAPHIC] [TIFF OMITTED] 79941.020
    
    [GRAPHIC] [TIFF OMITTED] 79941.021
    
    [GRAPHIC] [TIFF OMITTED] 79941.022
    
    [GRAPHIC] [TIFF OMITTED] 79941.023
    
    [GRAPHIC] [TIFF OMITTED] 79941.024
    
    [GRAPHIC] [TIFF OMITTED] 79941.025
    
    [GRAPHIC] [TIFF OMITTED] 79941.026
    
    [GRAPHIC] [TIFF OMITTED] 79941.027
    
    [GRAPHIC] [TIFF OMITTED] 79941.028
    
    [GRAPHIC] [TIFF OMITTED] 79941.029
    
    [GRAPHIC] [TIFF OMITTED] 79941.030
    
    Senator Dodd. Congressman Isakson, we welcome you, and we 
are anxious to hear your testimony.

STATEMENT OF HON. JOHNNY ISAKSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Isakson. Thank you, Senator Dodd, Senator Enzi, Senator 
Wellstone. It is a pleasure to be in the Senate, and it is 
particularly a pleasure to be with my good friend, Chaka 
Fattah; we have done a lot of things together, and I think we 
share precisely the same passion for education. And I am 
pleased that Senator Enzi asked me to come and testify with 
regard to the original intent, which I believe was House bill 
1234, and the issue of financing schools, but I will address 
some of the other things that Chaka mentioned in just a moment.
    In light of the opening statements, I would like to give 
you a little bit of background on me so you understand where I 
am coming from. I attended the first integrated schools 
following Brown v. Board of Education in the City of Atlanta 
and was in the class that admitted the first black students to 
the University of Georgia. I lived through the era where we 
went from a separate and unequal environment to begin this 
journey to provide an equal education for all Americans. So I 
was there.
    I married a public school teacher who taught special 
education until we began raising our family. I have taught 
Sunday school for 25 years, chaired the State board of 
education, was on the education committee, and had the 
financial ability to send my kids to private or parochial 
schools and sent them to public schools because I believe that 
that is where the real world is, and that is where our future 
is. So I wanted to put that on the record.
    The last point--when I left as chairman of the State board 
of education, I initiated a constitutional amendment which our 
legislature passed for a special-purpose sales tax to build 
schools, and we are building $6 billion worth of new schools in 
Georgia over a 5-year plan by raising taxes. So I do not shy 
away from making investments in our children.
    With that said, although well-intended, for the Congress of 
the United States to threaten to withhold Federal funding based 
on an arithmetic formula for whether students are receiving 
equitable education would be a disaster, and let me point out 
why--and I can only address specific numbers in my State of 
Georgia, but I think they are representative of the country.
    Over 50 percent of all tax dollars spent in Georgia are 
spent on education, and over 40 percent of them just on K-12. 
This year, that is over $6 billion in State tax dollars.
    The ad valorem tax bill in my home county, of the $3,200 in 
taxes I pay on my house, $2,100 goes to public schools. In our 
State, about 60 percent of all property tax paid by local 
taxpayers goes to public education. So it is the number one 
expenditure at the local level, and it is the number one 
expenditure in State government.
    The reason they tried to create an arithmetic or 
mathematical formula to determine equity or compliance is a 
disaster is because the finance of education depends on so many 
factors. In the State of Georgia, for example, a mill in one 
county may raise $12; a mill in another county may raise $80. 
The State has a constitutional cap of 20 mills on ad valorem 
tax.
    I know there are States that use severance taxes and other 
taxes to help finance public education, but because of that 
very mix, to try to create an arithmetic formula would be a 
mistake.
    I do not disagree that there is a correlation between low 
performance and expenditures in certain areas, but I can show 
you examples of where the highest per-pupil expenditures in 
Georgia go into systems where there are some of the lowest-
performing schools, so it is not always the equivalent to a 
quality education.
    Chaka and I have talked about this many times. My State 
went through the Dalton City Schools v. Whitfield County case, 
which was one of the first equalization cases in the country. 
We have equalized funding for education in Georgia that 
satisfied the courts that we are providing equitable 
investment, but we would be in violation of the Federal statute 
if the bill that Mr. Fattah introduced were to have passed, 
because you cannot--you cannot--in a responsibility that is 
relegated primarily to the States and the local governments, 
depress the will of people to make additional investments in 
their schools.
    Equity becomes only a baseline, but it cannot restrict the 
enrichment that local counties or cities may make in their 
schools. If you put an arithmetic formula with a deviation of 
only 10 percent, you would actually be lowering the investment 
in some of your highest investment schools which are not 
necessarily best-performing, all to satisfy the formula to get 
the Federal funding.
    So not to do any degree of overkill, a mathematical formula 
is a horrible mistake. It is by no means a mistake for all of 
us to look to everything we can do to improve the public 
education of every child in America. I think Chaka has hit on a 
good point. He has moved from money as the indicator to quality 
of teachers, to quality of environment, to other factors that 
go into education, and there are a lot of factors that go into 
the education of a child.
    I would be pleased to work at any time, as I think I 
demonstrated in the conference committee on No Child Left 
Behind, with any politician, regardless of party, to do 
anything we can to improve the education of our children as a 
partner with the States and local school boards that have the 
responsibility of doing it, as well as the American taxpayer.
    Our children are a message we send to a time that you and I 
will never see, and the message that America sends to the 
future should be as great as the message that past generations 
have sent to today's time. But I will promise you that 
equitable financial investment is in no way an indicator. If it 
were, the people of the United States of America, who pay each 
of us approximately $150,000, would all determine they are 
getting equitable representation and intellect from every 
Member of Congress, and I do not think anybody would agree with 
that. There are varying degrees of input, experience, 
longevity, intellect, ability, and everything else.
    It is a component, but it should never be the component 
that determines whether or not Federal funds are invested in 
America's poorest and most deserving children and those with 
disabilities.
    I thank the Senator for affording me the time.
    Senator Dodd. Thank you very much, Congressman. I 
appreciate your testimony.
    Let me turn to my colleague from Minnesota to see if has 
any opening comments, and then we will have a few questions.

          OPENING STATEMENT OF SENATOR PAUL WELLSTONE

    Senator Wellstone. Thank you, Mr. Chairman.
    This is not really an opening comment, but I do want to 
react, and I want to hear from Mr. Price and the other 
witnesses as well, so I will try to be brief.
    On your last point, Congressman Isakson, I think you are 
right--people would not agree with the proposition that 
everybody gets the same quality representation. On the other 
hand, there would be a hue and cry from all over the country if 
the Representative from State of Georgia were paid less than 
the Representatives from other States. I think people in the 
different States would say that that was absolutely outrageous.
    Mr. Isakson. I do not dispute that at all.
    Senator Wellstone. If it is okay with the two of you--and I 
think this is an important piece of legislation, and I 
certainly know what my friend from Pennsylvania is trying to do 
in really trying to force this equity question, and I am kind 
of sympathetic to some of the comments that Congressman Isakson 
made in terms of baseline spending versus whether you draw the 
line on how much can be spent--but could I get back to this 
debate, because both of you have spoken about it, about ESEA in 
terms of where the resources are? To me, that is the question 
that is before us here and now.
    I want to ask two questions. Number one, for Congressman 
Isakson, given what you have said about what the role of the 
Federal Government is, I found myself in an odd position as a 
liberal out on the floor of the Senate, saying that I did not 
really think the Federal Government ought to mandate that every 
school district test every child in grades 3, 4, 5, 6, 7, and 
8. I thought that that was an overreach, frankly.
    But most important of all, I think the position that I 
took--and now I feel horrible about it, because I think it 
really has turned out to be true--was that we need resources to 
fund the reform. Right now, I do not see the resources, be it 
living up to our commitment on special education, or be it 
Title I, or be it what we do pre-K, or be it what we do after 
school, or be it what we do in terms of teacher recruitment and 
teacher retention. I do not see any of the resources that a; 
make it possible for each of these kids to do well on what we 
hope will be high-quality tests, and b; if they do not do well, 
make it possible to provide the additional help for them to do 
well.
    Can I ask the two of you whether I am right or wrong that 
what you have here is a Federal mandate to test every child, 
but you do not have a Federal mandate that every child has the 
same opportunity to do well? Isn't that the contradiction? 
Isn't that the harsh contradiction we are now faced with?
    I frankly wish we would not put so much emphasis on the 
testing, to be perfectly honest, and I would love to have a 
discussion about that some other time. But could I ask just 
that one question--am I right or wrong? I am in school every 2 
weeks, and I taught, and I believe in it, and you do, but I 
find this to be a charade.
    I will tell you what I am hearing in Minnesota--I am sorry, 
30 more seconds--in our State, people are furious. We are 
cutting teachers, we are cutting pre-kindergarten programs, we 
are cutting after-school programs, and people in Minnesota, 
starting with the education community, feel robbed. They never 
got the special ed money, they are not getting what they need 
on Title I or any of the rest of it.
    The Federal Government does not provide the biggest part of 
K through 12 education spending, but why haven't we lived up to 
our responsibility to fund what we should be funding? Where are 
the resources? Isn't it a charade to have all this testing to 
say that we have accountability, and then we do not invest the 
resources to make sure the children have the same chance? That 
is my question--and when are we going to do it? We had better 
do it this session.
    Mr. Isakson. Senator, do you want me to respond to that?
    Senator Wellstone. That would be great.
    Mr. Isakson. First of all, I will say that I do not think 
any of us are ever going to be satisfied with the investment 
made in education for all the reasons we all believe in it. But 
let me specifically answer your question.
    When we passed No Child Left Behind, and we passed the 
Labor-HHS budget and funded the Department of Education, 
everybody in here knows that we made the largest increased 
investment in the poorest kids in America that this country has 
ever made since Title I was started. So I think the point 
should be made that in the year in which we initiated testing, 
we also initiated enriched funding only--or primarily--for 
those kids which the intent of this bill is talking about.
    Was it enough? That is an argument that we could have 
forever.
    Senator Wellstone. Well, no--let me ask you--was it enough?
    Mr. Isakson. I just said at the beginning that you are 
never going to find us to agree it is enough. But I want to 
answer your question. It is the largest increase that we have 
had.
    Now, as far as testing is concerned, I am going to be very 
honest and very blunt about this, and I know there will be some 
people who disagree with me. In a lot of America's schools 
where a lot of America's poorest children go, for a number of 
years, they have been chronologically promoted because of their 
age to a point where they either no longer legally had to go to 
school, or they had the will and the way to drop out. That is 
an accurate statement. Some have called it ``social 
promotion.'' There are lots of different reasons. Maybe it is 
the environment they came from; maybe it is discipline; maybe 
it is absolutely abject, terrible teachers. But that has 
happened.
    Testing and accountability on the schools raises the 
visibility of the performance of those schools, and I have 
found personally--and I ran the State school system in 
Georgia--that we give a bum rap to teachers. Teachers have the 
hardest job in America. But there are a lot of administrators 
who do a lot of averaging to end up giving statistics that 
appear that a system is meeting a certain level. When we 
disaggregated, and we tested in reading and math in third 
through eighth grade, in my opinion, we made the largest move 
toward ending social promotion and lowering the dropout rate in 
America that you will ever have. We increased the investment in 
the very children that you ask about.
    Was it enough? Nobody in this room would ever agree that it 
was enough. But it was the largest increased investment that we 
have made in some time. So my answer to your question is that 
the testing was absolutely essential, because for 35 years, we 
invested $125 billion and did not improve the plight of our 
lowest-performing kids. Now we are going to have a measurement 
to find out if we are or we are not.
    Mr. Fattah. Let me say this in response to your question, 
Senator. You are absolutely right that there is a dearth of 
Federal commitment in terms of what we need to do relative to 
the mandates in No Child Left Behind to help schools. But let 
me also say that even if it were fully funded, the issues that 
bring me to the Senate this morning would still exist. That is 
to say, even if we fully funded all of the Federal programs, 
which are the most targeted programs that exist in this country 
in terms of helping impoverished children, we would still have 
the differentials that exist between high-achieving districts 
and low-performing districts.
    I will enter into the record and just read one paragraph 
from an editorial by Bob Hubert at The New York Times just 2 or 
3 days ago. Talking about New York City, he says: ``In many 
ways, New York City students of all colors are treated the way 
black students were treated in the pre-Brown era. They are 
measured against standards that are the same for all, but they 
are not given the fundamental educational tools that are 
necessary to reach such high levels of competence.''
    It is not about the pay of members of the Senate or the 
House that would interfere with your analogy. What happens if a 
member of Congress is asked to represent their district but not 
have access to telephones, not have access to staff, not have 
the ability to serve on a committee, not be able to speak on 
the floor of the House?
    How can a youngster be required to pass an SAT to get into 
a State college, but for middle school and high school, never 
have a science teacher who majored or minored in science or 
math, not have access to textbooks? How can these students 
achieve?
    The point I raise to you is that we need to try to 
encourage States--and in my new legislation--and I agree with 
and I have heard all the comments about the original document; 
that is why we changed our formula and changed our approach--
what we want to do is ask the Federal Government to require 
States to say that every child be given a qualified teacher in 
the core subjects, that they be given updated textbooks, that 
they have the same access to computers that children in the 
higher-achieving districts have in those States, that they have 
the same access to guidance counselors.
    The question in any family is not how many dollars are 
available, but let us at least have everyone be able to 
participate and benefit by whatever resources are available. So 
it is not just a question of what the resources are, but how 
can we better provide them so that every child in every 
circumstance in this country has a fair opportunity.
    Senator Wellstone. Congressman--and this is the final 30 
seconds--I so appreciate it, and I know where you are heading, 
and Jonathan Kozol would love you. This is right out of his 
books, and you know his work, and he knows your work, and I 
know exactly where you are heading, and thank God for your 
voice and the direction you say we are going.
    I just do not want to lose sight of what I consider to be a 
here-and-now battle, which is what in the world ever happened 
to Leave No Child Behind?
    Congressman Isakson, I am not just trying to be Mister 
Stroke Man here. You have so much credibility, and you know 
your stuff and all the rest, but where I beg to disagree with 
you is that, frankly, when I see the number of kids who were 
eligible for Title I this year, in real dollar terms, we did 
not bump it up. There were many more kids eligible.
    I know what Senator Dodd tried to do on the floor. And when 
I go to our schools, and I see a pathetic increase in the 
overall ESEA budget this past year versus what we did before, 
and I see this mandate that we laid on the States, I understand 
it when, in the schools that I visit, the teachers look at me 
and say, ``Fine. Big surprise. Our kids did not do as well as 
the kids in very affluent suburbs. And now we ask you: Where 
are the resources for us to make sure these kids have the same 
chance? Now what are we to do?'' And do you know what? The 
resources are not there.
    Therefore, I want to shout it from the mountaintop at this 
hearing--I consider this Leave No Child Behind piece of 
legislation to sort of be a contradiction, with a goal you 
cannot reach on a tin cup budget--that is what we got from this 
administration. I am furious the bill went through, because we 
never backed it up with the resources. I was just going to say 
it, and I said it. I am done.
    Senator Dodd. Okay. You said it.
    Senator Wellstone. I feel better.
    Senator Dodd. Thank you very much.
    I will turn to my colleague from Wyoming in just a moment, 
but let me just ask one question. Congressman Isakson, as I was 
listening to you, I was familiar with what Congressman Fattah 
had offered earlier and what his new proposal is, and I would 
ask whether you are aware of the new proposal and whether your 
criticism of it would be the same as before, or whether there 
is a different approach being set out here?
    And second, all of us are reluctant to get into the 
business of punishment and reward--although we do it in a 
number of areas already. We say under Federal law that within a 
school district, you have got to have comparable services. That 
has been in Federal law for years. It is one of the reasons why 
Title I funds exist. We now are saying that children are now 
going to have to be tested every year. So we have applied a 
pretty rigid standard, and we have said to schools that if you 
do not meet this standard, we are going to shut you down.
    Why is there such a reluctance for us to say something to 
the political structure which is most responsible for the 
quality of education--our States? I come from the most affluent 
State in the country, and yet, in this tiny 40 mile by 100 mile 
State, we have tremendously affluent districts and tremendously 
poor districts.
    Why can't we say something to States about adequacy? I do 
not want to see Fairfield, CT or Ridgefield, CT--where it is 
remarkable what they have done with resources to commit to a 
wonderful education--forced into a race to the bottom, but I 
don't want to keep saying to a child in Bridgeport who lives 15 
minutes away from Ridgefield: ``I am sorry, but you were born 
in the wrong place. I know it is a great State, and this is a 
wealthy country, but if you had been born 15 miles down the 
road, your Government would do more in order to help you 
maximize your potential.''
    How do you justify that and not say to the States as well, 
``We want to help you. This is not about criticizing you. We 
want to figure out how you can close these gaps.''
    How do you answer that?
    Mr. Isakson. Well, first, I appreciate the question because 
I want to reiterate what I said at the beginning. I was asked 
to come here to talk about H.R. 1234, and I did a good job of 
telling you why I did not agree with that.
    Senator Dodd. Yes, you did.
    Mr. Isakson. Well, maybe not a good job----
    Mr. Fattah. And I heard you, and I have changed.
    Mr. Isakson. And he has heard it before.
    To Chaka's credit, and the credit of a lot of other people, 
I think the seven measurements that he mentioned are certainly 
measurements that contribute to an improved education. This has 
been a work in progress, so I have seen bits and pieces over 
the last week, but I do not get into this ``We are on one side, 
and you are on another, so I am not for it''--I kind of do what 
I think is right--and if we are improving kids and their 
plight, we are doing things right.
    But, I appreciate so much what you said about Bridgeport 
and Fairfield, and I have been to your great State and have 
seen the evidence of the wealth as well as the difficulties 
that all of us have in all of our States.
    Let me tell you, there are a couple of facts we should all 
know. We ought to have a certified teacher in every classroom. 
There are not enough certified teachers in America to put in 
every classroom. So we need to start--instead of trying to fool 
people to think they are out there, but we just do not have 
them in the class--we have got to start providing direction, 
resources, and partnerships with the institution of education 
to get those teachers in classrooms.
    On school construction, which has something to do with 
pupil-teacher ratio, because every time somebody throws out 
this--and I had to do it in the State, so I know--when somebody 
says, ``I want to lower the pupil-teacher ratio from 25-to-1 to 
23-to-1,'' they just spent $100 million to build classrooms to 
put those new classes in. There are lots of things that we need 
to look at, and it has got to be a Federal-State partnership.
    There are clear indicators in some of the things that Chaka 
mentioned that have a lot to do with--I have always hated 
``adequacy''; I think ``excellence'' is the better word. One of 
the reasons, Senator Wellstone, why the testing is so important 
is because it will give us an indicator--I did not say ``the'' 
indicator--but it is going to give us an indicator of the 
performance we are getting with what we do have and what we are 
investing. And then, if we focus on recognizing that we do not 
have enough certified teachers, and we need more, somehow we 
have got to break through the philosophical alternative 
certification versus classical certification and find a way to 
get certified teachers in the classrooms without politicizing--
I try never to do that.
    Also--and I know there have been comments about 
disappointments in No Child Left Behind--but I can tell you as 
one who has worked with education for a long time and been a 
Republican, I am so delighted that my President has taken an 
issue that for years, our party did not address and made it 
paramount. I am very proud of that.
    Senator Dodd. I agree with you.
    Mr. Isakson. The fact of the matter is that when I was 
chairman of the State board of education, I went to Texas and 
actually watched what they were doing, because they started 
getting results in closing the achievement gap. And that is 
what is so important, because education has institutionally 
averaged its way into mediocrity in many elements of testing by 
saying, well, our system is doing pretty good because we are 
averaging our best with our worst, so we are in the middle.
    Now, with the disaggregation, I think we are going to begin 
to see some verification of some of the very factors that Chaka 
has mentioned, and hopefully, as we work with this, we can find 
ways to take his seven indicators and possibly others and find 
ways to have Federal-State partnerships to solve the problem, 
which I would be totally supportive of.
    So I appreciate the Senator giving me the chance to feel 
better, as Senator Wellstone does, and so you did not think I 
was totally trashing my good friend from Philadelphia, I was 
only talking about the error of his ways with regard to 
financial formulas.
    Senator Dodd. Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I was upset earlier at some of the comments about tin cup 
budget--I have heard your speech on it before, and I have 
gathered some statistics--but I realize that that is not what 
this hearing is about. We have been devoting 7 percent of the 
Federal budget to education for years, and we finally got to 9 
percent, and it is going up. Now what we are trying to do is 
get the money directed to the right places, and I am going to 
try to contain my questions to that aspect.
    I really do appreciate--and I have not had a chance to look 
through it all yet; I have your comments from today--they are 
very nicely put together.
    Mr. Fattah. Thank you.
    Senator Enzi. There is some extremely helpful information 
in there, and it is interesting to see the court cases in the 
different States. There is probably a little bit more 
background on some of those court cases that needs to be put 
out there, and perhaps that will happen in the testimony from 
Wyoming regarding our case.
    At the beginning, we were funding the big schools too much 
and the small schools not enough, so we reacted to a court case 
early-on and skewed it the other way completely; now we are 
trying to bring it back in line where I guess it would be the 
inner city of Wyoming, but in a town of about 22,000, it is 
hard to relate to that. One thing we are trying to do here 
today, and in each of the States, is focus on what education is 
about, which is learning and achieving--not about being 
allotted a certain amount of money. But there is a 
relationship, and we need to figure out how that relationship 
works.
    Wyoming would be in violation of your bill. As hard as we 
have worked on equity, we would be in violation of your bill. 
But we might be in violation in a little different way than is 
expected, and that is that one of the poorest areas of our 
State is the reservation, and they have been funded in an 
amount about three times as much as the rest of the students in 
the State.
    One way that our State tried to solve this problem was to 
come up with a cost of education. We recognized that there were 
differences in different parts of the State in being able to 
buy things. We had the milk controversy where in one corner of 
the State, milk cost almost twice as much as in the other part 
of the State. We try to make sure that all the kids get milk, 
so we had to equalize the milk funding.
    Another problem is with getting certified teachers. I think 
Wyoming would have one of the highest rates of certified 
teachers, but the competition is not between other school 
districts getting them; we have some boom areas of the State, 
some areas that are high in energy development, and those 
people can go out and run a road grader or a truck, or some of 
them even just drive a car, and make five times as much as a 
teacher. That should never happen, but it does. If we want to 
keep teachers, they are not paid the same amount as the workers 
in the mines, but they have to pay more in that area than in 
other areas of the State. So we have tried to recognize some of 
those cost differentials that allow districts to get the kind 
of help that they need.
    I mentioned the class size disparity. Some of that is 
forced by distances that the kids have to travel--but it all 
has to be funded. So I guess I am still back at the point of 
trying to determine what ``equity'' is, and if either of you 
want to comment on that, I would appreciate it.
    Mr. Fattah. First of all, Senator, I appreciate what you 
said about your home State, and I have paid some attention to 
the efforts there in terms of the ``hold harmless'' and the 
small towns and the cost-of-living features. It is part of the 
continuum of this effort to get to a circumstance in which 
children would have more equal opportunity. Your State has 
grappled with it more than most and has been more aggressive 
and more creative in a number of different ways.
    What I have tried to say in the new version of my bill, 
which I think my colleague has said nice things about this 
morning, is not to focus on the question of money, because 
somehow, when I talk about money, people get excited, and they 
either say that money does not matter, and it is not the reason 
why these children are not performing--and my old answer to 
that was that if it did not matter, let us equalize it--and 
then, some who supported my position would say that it does 
matter, and I would say that if it does matter, we should 
equalize it.
    But when I come to Washington, I have learned that there is 
a reluctance to get into the issue of the actual financial 
basis for school funding which all of these court decisions 
that I have laid out have focused in on, that is, if you take 
poor communities and finance them based on the property tax, 
you inevitably create a circumstance in which they are going to 
have lower-funded schools. There is no way around it, and those 
children are going to be ill-served.
    I think it was the Wyoming case in which one of the 
gentlemen who represented the teachers' union stated that it 
was not the kid's fault if he was not born next to an oil well. 
So the point becomes that I tried to move from the question of 
money to something that we can agree on, which is that a kid 
should have a qualified teacher in the classroom, a kid should 
have a textbook--there are textbooks in libraries, 
unfortunately, in some of our States, one of them a State near 
you, that were printed 30 years ago, one of which was titled, 
``Asbestos: The Miracle Mineral.'' We know better now, but that 
book is still on the school library shelf, and we need to do 
something about it. I think kids need a library, they need 
access to guidance counselors.
    What I am saying is let us take the things that we agree 
on, whatever they happen to be, and let us measure whether 
States, on an annual basis, are doing more to have those things 
provided to every child or whether they are doing less, and let 
us hold them to a standard on that.
    I started with the notion that we should have a drastic 
penalty on States. Senator Dodd has moderated my view on that 
to the point where we would just have a symbolic penalty where 
1 percent of the administrative cost would be withheld, but 
when they started making progress, they would get that, too, so 
it would never be a real penalty.
    What I am seeking to do is simply get us in the business of 
saying to State governments: We want a real partnership with 
you. We have, as you have indicated, added a great deal in 
terms of Federal investment on a percentage basis to education. 
Are efforts will be frustrated if State governments do not 
insist that whatever they are doing in their high-achieving 
districts--I am not talking about small class sizes out of thin 
air--I do not care what the class size is; whatever the class 
size is in your State for high-achieving districts, you should 
try to create a circumstance where that class size exists in 
your low-achieving districts, because it might follow that if 
we do what we are doing in our high-achieving districts, in our 
low-achieving districts, we might get a comparable result.
    It did not take Einstein to say it, but he said it--he said 
``if you keep doing what you have been doing, you are going to 
keep getting what you have been getting.''
    Therefore, we have to do something different here if we 
want a different result.
    Senator Dodd. Very good. Anything else, Senator Enzi?
    Senator Enzi. Congressman Isakson, do you have a comment?
    Mr. Isakson. Yes. I will be brief, Senator Dodd.
    Senator Enzi, again, I did say nice things about Chaka's 
new approach, because it goes from the arithmetic formula that 
creates unintended consequences to beginning to ask ourselves 
what is it that we need to do.
    And I just want to inject--and I am not lobbying here, 
Chaka--but the word I mentioned about the Federal-State 
partnership, we put in H.R. 1 the school report card so that 
people in the State will know whether their schools are 
failing. We might work toward a report card here, where States 
are performing and take the results, Senator Wellstone, the 
initial results that we get out of testing and other 
measurements and their disaggregation, so we can truly zero in.
    Knowledge is a powerful thing, which is why all of us 
believe in education; it is also powerful in politics. And if 
people know where the problems are, and they know where their 
State rates, not in some mathematical formula, but in the 
number of people dropping out or the number of people who are 
poor-performing, regardless of their race or creed or color--we 
care about every child--that is meaningful.
    So the outline that Chaka has done here is for us to try as 
politicians and those who care about education to find those 
things that we all agree are important to an adequate, or 
hopefully, a quality or an excellent education, and then find 
ways in which we can form partnerships to reach the goal of 
every child and every State and every school district getting 
there. And that partnership is not totally a financial 
partnership. A lot of it has to do with other investments of 
other types of capital.
    Senator Dodd. In fact, I would be very interested in 
introducing with my colleagues here, with Senator Enzi and 
others, a comparable bill to see if we cannot pull some things 
together.
    I appreciate it very, very much. We could actually spend 
all morning with you. We have another panel of witnesses, and I 
do not want to tie people up, but you are welcome to stay if 
you like, because you care so much about it, and you bring a 
wealth of information.
    I have to be careful here--I do not want our friends in 
Georgia or Pennsylvania to get nervous about your presence 
here, sitting at a table in the Senate--but neither one of them 
is around this morning, so we will try to smuggle you in if you 
want to come on up and sit with us.
    Mr. Fattah. Okay.
    Mr. Isakson. Thanks for the opportunity, Senator, and the 
only reason I will not stay is that we have missed a couple of 
votes already, and I do not want my opponent to get too 
excited, so I am going to get over there and cast a few.
    Thank you very much for the opportunity.
    Senator Dodd. Thank you very much. I appreciate your being 
with us, and we will stay in touch with you on this. We would 
very much like to work with you.
    Senator Dodd. Let me call up our second panel.
    Hugh Price is president and chief executive officer of the 
National Urban League, one of the country's premier civil 
rights organizations, with a long history of expertise about 
the commitment of equal opportunity, including equal education 
opportunity, beginning his work New Haven, Connecticut, as a 
legal assistance attorney. We appreciate having you here, Hugh. 
It is an honor to have you with us today.
    Michael Rebell is executive director and counsel for the 
Campaign for Fiscal Equity, which includes the Advocacy Center 
for Children's Educational Success with Standards. He has been 
in the forefront of the national movement for equal educational 
opportunity, both as a litigator and an author. He taught 
courses on law and education for many years at Yale Law School 
and is currently adjunct professor at Columbia University, at 
the Columbia Law School.
    Mary-Beth Lang teaches at Waltersville Elementary School in 
Bridgeport, Connecticut. She has had 32 years as a teacher, has 
taught kindergarten, first, second, third, and fifth grades. 
She is currently a literary resource teacher and lives in 
Fairfield, which is the neighboring town to Bridgeport. I made 
reference to those two communities earlier, not without reason, 
knowing that Ms. Lang was going to be joining us.
    Our last witness is the witness that I have already 
indicated we would allow to go first because of the commitments 
of my colleague from Wyoming, and we know he wants to be here 
to hear Judy Catchpole. Judy is serving her second term as 
Wyoming's superintendent of public instruction. She also serves 
on the executive board of directors of the Council of Chief 
State School Officers. She has been involved with children for 
many, many years as an educator, an advocate, and a volunteer.
    Judy, we are honored that you made the long trip from 
Wyoming to be with us, and as I said earlier, why don't we 
begin with you. Since we have already been talking about 
Wyoming with you in the audience, we would be happy to hear 
your comments.
    By the way, any and all supporting documentation, graphs, 
charts that you would like to include as part of the record, I 
will ask unanimous consent that they be so included. 
Congressman Fattah had earlier asked for some information to be 
included, and all of that information, we will make a part of 
the record. Your statements will all be included in the record 
as well. I read them last night, and some of them are a little 
long. I am going to put this clock on, and again, it is not to 
deprive you of an opportunity to be heard, but I want you to 
keep an eye on it so we can get through the testimony. So if 
you could to some extent--because it is going to be difficult 
to get through them in the 5 or 6 minutes that we normally 
allocate here--keep an eye on the clock, and when the light 
turns red, try to find a way to get to the bottom line if you 
could.
    Judy, welcome.

  STATEMENT OF JUDY CATCHPOLE, STATE SUPERINTENDENT OF PUBLIC 
                   INSTRUCTION, CHEYENNE, WY

    Ms. Catchpole. Good morning, Mr. Chairman, Senator Enzi, 
Senator Kennedy, and Senator Wellstone. Thank you for this 
opportunity to be here to speak with you today.
    It might surprise you to learn that the evolution of 
education equity in Wyoming certainly mirrors the development 
in other States. What we know is that across this country, as 
State agencies, we all face many of the same challenges.
    The ``how'' of meeting these challenges is a question that 
we have grappled with across State boundaries and across 
economic barriers. For example, as we sit here today, some 43 
States find themselves in some state of litigation of education 
equity and school finance; and indeed, so it is in the State of 
Wyoming where, over 20 years ago, our Supreme Court first 
ordered an ``equitable'' system of funding schools. At that 
time in our State and around the Nation, equal dollars was 
assumed to mean equal education. That indeed proved to be an 
erroneous assumption, and in 1995, the Wyoming court moved, as 
have many other courts across the country, to a position that 
looks at both equity and adequacy in determining whether or not 
a child has equal access to education.
    While the United States Constitution is silent on the right 
to a public education, the Wyoming Constitution is indeed not. 
Our Constitution requires a ``proper and thorough'' education, 
allowing those words to define themselves over time.
    We have embraced the direction of our State's Constitution. 
We have realized that the concept of equity is not easily 
defined. Although we have had many court decisions, we cannot 
regulate equity.
    In order to achieve the concept of equity, we have built a 
funding model in Wyoming that provides the same dollar amount 
for each student and then, depending on unique local 
demographics, that amount is adjusted.
    Several years of debate, discussion and hearings have 
resulted in a product that we now believe is equitable, yet it 
defies a concrete definition. After all of those adjustments, 
we arrive at a dollar amount per student as the basis for 
comparison. It ranges from a low of $7,009 per student to a 
high of $14,715. Those calculations are based on data, and they 
are applied uniformly to each student.
    As we have struggled to provide equity and adequacy in 
Wyoming, we have a variation of spending per pupil of 25 
percent. We have a system that accepts ``equal'' as meaning 
something far, far different than ``the same.''
    In Cheyenne, WY, where the students receive the lowest 
dollar per student, Central High School offers 225 courses, 
including over 13 advanced placement courses. Wheatland, a 
rural district 80 miles away, receives almost $1,000 more per 
student, yet it offers only 100 courses for high school 
students. In Wheatland, the high school does not offer advanced 
physics, but you can take advanced studies in Shakespeare.
    Is this an equitable system? I would suggest to you that 
based on my experience, it is. The residents of these Wyoming 
communities would tell you that the students in their schools 
are receiving an education that is, in the words of the Wyoming 
Constitution, ``complete and uniform, proper and adequate.''
    Last winter, this Congress passed sweeping Federal reform 
designed to address the needs of both Los Angeles and Wyoming 
in the No Child Left Behind Act. I know that you spent a lot 
more time worrying about what happens in our largest cities, 
but thanks to Senator Mike Enzi, you also spent time wondering 
about what happens in rural Wyoming communities.
    I am here to tell you that No Child Left Behind will work 
in Wyoming. It will work with flexibility, with hard work, and 
the utilization of scientifically-based programs. With No Child 
Left Behind, you have already taken enormous steps to assure 
equity, adequacy, and the opportunity for all learners. Make no 
mistake--States, districts, and schools will labor intensively 
to comply with these new provisions. For the first time in our 
Nation's history, we as educators and administrators will be 
responsible for the real achievement of all students. We will 
have to deliver. I embrace this opportunity.
    All 50 of our Nation's chief State school officers are 
painfully aware of the unacceptable gap in achievement between 
advantaged and disadvantaged students. In each of our States, 
plans are already underway to address these issues. Provisions 
of No Child Left Behind will assure goals, indicators, and 
targets. The elimination of this gap stands as our number one 
priority.
    As you look at the Federal role in assuring equity, let me 
encourage important restraint. No Child Left Behind takes the 
Federal Government into uncharted territory. Let this law work. 
Federal funding has always targeted our most needy populations 
of students. Whether it is Title I, school nutrition, or IDEA, 
your goal has always been in supplement and not supplant.
    Please bear in mind that the Federal contribution, which 
has increased from 6 to 9 percent due to the commitment of our 
President, George Bush, is still a very small proportion of 
total education expenditures. This agreement between the 
Federal Government and the States has kept an important balance 
in the local traditions and the national importance of 
education.
    We implement these laws, and we accept the burden of rules 
and regulations and paperwork because we know that in most 
cases, this increases opportunities for our students. No Child 
Left Behind will strain that. And we will accept these new laws 
because we see the wisdom behind them.
    As you consider the guarantee of equity in education, 
please bear in mind the wonderful progress that is offered by 
No Child Left Behind. Please continue to honor the historic 
traditions of local control and of States' rights. Please 
recognize the wonderful work that is being done this very day 
by States and local districts to implement No Child Left Behind 
and to guarantee opportunity for all students.
    Thank you.
    [The prepared statement of Judy Catchpole follows:]
                  Prepared Statement of Judy Catchpole
    Good morning, Mr. Chairman, members of the committee. Thank you for 
this opportunity to provide perspective on this morning's topic, 
providing equal opportunity for education.
    I am currently serving in my 8th year as Superintendent of Public 
Instruction for the State of Wyoming. Thanks to Senator Mike Enzi, I am 
confident that each of you knows about our State. We are one of those 
square States west of the Mississippi. It may surprise you to learn 
that the evolution of education equity in Wyoming mirrors the 
developments in other States. What we have learned over the past 
several years in education is that we face many of the same challenges. 
Surely, we all have the same goals for our children: We want our 
schools to produce lifelong learners, contributing citizens and 
productive workers.
    The ``how'' of reaching that is a question we have grappled with 
across State boundaries and across economic barriers. The question of 
equity becomes more complex as we debate and discuss the issue. And 
again, events in Wyoming are so very similar to those in other States, 
I shall use us as an example.
    As we sit here today, some 43 States find themselves in some phase 
of litigation of education equity and school finance. The Supreme 
Courts in 19 of those States have found school funding systems wholly 
unconstitutional. The spectre of litigation lingers in States and 
districts all across our country.
    And so it is in the State of Wyoming, where over 20 years ago our 
Supreme Court first ordered an ``equitable'' system of funding schools. 
At that time, in our State and around the Nation, equal dollars were 
assumed to mean equal education. That proved to be an erroneous 
assumption, and in 1995 the Wyoming Court moved--as have other courts 
in the last decade--to a position that looks at both equity and 
adequacy in determining whether or not a child has equal access to 
education.
    While the United States Constitution is silent on the right to a 
public education, the Wyoming Constitution is not. Indeed, our 
constitution has established education as a right of all citizens. Oh, 
that our founding fathers might have envisioned what words such as 
``complete and uniform'' really mean in 2002. Our constitution requires 
a ``proper and thorough'' education, allowing those words to define 
themselves over time.
    We have embraced the direction of our State's constitution, and as 
times have changed, so have we. And as times have changed, we have 
realized that the concept of ``equity'' is not easily defined. Though 
we have court decisions coming upon court decisions, we cannot regulate 
this concept. In the world of schools, from the inner cities (which 
Wyoming has none of), to the remote outpost (and we have several), each 
school is full of individuals. Each of those individuals brings a 
unique contribution to the mix.
    In order to achieve the concept of equity, we have built a funding 
model that provides the same amount for each student, and then 
depending on unique local demographics, that amount is adjusted. 
Several years of debate, discussion, hearings have resulted in a 
product we believe is equitable, and yet it defies a concrete 
definition.
    After all those adjustments, we arrive at a dollar per student as 
the basis for comparison. It ranges from a low of $7,009 per student in 
Cheyenne (which is where our largest district is located) and goes to a 
high of $14,715 per student in Arvada/Clearmont a small community in 
the northern part of our State. Those calculations are based on data, 
applied uniformly to each student. And yet, we all ask is it ``fair'' 
to provide $7,500 more for that student in Arvada/Clearmont?
    As we have struggled to provide equity and adequacy in Wyoming, we 
have a variation of spending per pupil of 25 percent. We have a system 
that accepts ``equal'' as meaning something far different than ``the 
same.''
    In the aforementioned community of Cheyenne, where the students 
receive the lowest dollar per student, Central High School offers 225 
courses, including over 13 advanced placement classes. Just 80 miles up 
the road, Wheatland, Wyoming is a rural farm community. That district 
receives almost $1,000 more per student. That high school offers about 
100 courses for those students. In Wheatland, the high school does not 
offer advanced physics, but you can take advanced studies in 
Shakespeare.
    Is this an equitable system? I would suggest to you, based on my 
experience that it is. The residents of these Wyoming communities would 
tell you they believe their local schools are good ones, and that the 
students in their schools are receiving an education that is, in the 
words of our Wyoming Constitution ``complete and uniform, proper and 
adequate.''
    This is a time in our country when the focus in all 50 States is on 
ensuring that all students have access to an adequate education. My 
counterparts in the other 49 States struggle daily with this challenge. 
We share a united sense of purpose. We have found that many processes 
indeed lead to increased student achievement. Yet, we also know that 
the paths we take to provide equal opportunity rely entirely on the 
individual needs of our students.
    We have grown over the past decades. We now fully understand that a 
check list on inputs and rules does not provide adequacy or equity. 
States have discovered that an appropriate blend of accountability and 
flexibility is needed to provide opportunities for children.
    This Congress took an important step last winter, with the passage 
of the ``No Child Left Behind Act.'' In exchange for valuable Federal 
dollars, States are expected to develop the research-based systems that 
truly lead to student achievement.
    In accepting the needed Federal funds, we accept the responsibility 
for implementing those systems. And rounding out the partnership, we 
have been given some flexibility in determining how we will meet the 
goals of the Act.
    Just as the status of school finance litigation has evolved to a 
consideration of the adequacy of education, so has the role of the 
Federal Government in recognizing that individual States, and local 
districts must be empowered to make good decisions about how students 
learn.
    Some of you may have heard Wyoming's former Senator Al Simpson 
refer to our State as ``the land of high altitude and low multitude,'' 
and indeed it is true. Spanning some 97,000 square miles, with a 
population of just under 500,000, Wyoming is home to 382 schools and 
approximately 87,000 students. In 38 Wyoming towns there is a single 
elementary school.
    Last winter you passed a sweeping Federal reform designed to 
address the needs of both Los Angeles and Wyoming. I know you spent a 
lot more time worrying about what happens in our largest cities. Thanks 
to Mike Enzi, you also spent time wondering about what happens in a 
rural community. I am here to tell you that ``No Child Left Behind'' 
will work in Wyoming--with a lot of hard work.
    Even as we speak, States are submitting their initial plans on 
implementation of that new law. Each plan is based on the specific 
needs of the schools and students within the boundaries of each State. 
With that law, you have already taken enormous steps to assuring 
equity, adequacy and the opportunity for all learners.
    Make no mistake: States, districts and schools will labor 
intensively to comply with the new provisions. Some will fall short, 
and there are consequences when that occurs. For the first time in our 
Nation's history we, as educators and administrators, will be 
responsible for the real achievement of all students. We will have to 
deliver. I embrace this opportunity. Knowing that this is a process 
that will truly make a difference for the students in the classroom, I 
am willing to accept the great changes and challenges inherent in that 
law.
    All 50 of our Nation's chief State school officers are painfully 
aware of the unacceptable gap in achievement between advantaged and 
disadvantaged students. In each of our States, plans are already 
underway to address these gaps. Provisions of ``No Child Left Behind'' 
will assure goals, indicators and targets. The elimination of this gap 
stands as our number one priority.
    One key element in assuring equal opportunity is the move to assure 
that every child is taught by a qualified teacher. Clearly, improving 
teacher quality is a major initiative in all 50 States. School 
districts must be able to hire and retain talented individuals to teach 
in our classrooms.
    And again, no single method, rule or regulation will assure 
qualified teachers. A nationwide discussion of teacher shortages 
reveals certain specifics about this problem. There is no general 
shortage of teachers. There are indeed shortages in specific content 
areas such as math, science, special education, bilingual education and 
technology education. There are shortages in certain locations such as 
low-income urban and remote rural schools, and in fast growing 
districts of the southern and western United States.
    No single Federal policy can address these specific needs. Instead, 
the answer lies within local boards and the ability to pay more for 
teachers in hard-to-staff schools; and in the ability to retain the 
teachers in those schools.
    We frequently hear about the need to assure equity in the 
availability of technology. Yet, the use of technology in the delivery 
of education is best under certain circumstances and with specific 
types of students.
    As you look at the Federal role in assuring equity, let me 
encourage important restraint. ``No Child Left Behind'' takes the 
Federal Government into uncharted territory. Let this law work.
    And bear in mind the historic role the Federal Government plays in 
providing educational opportunities. Using the tried and true, ``carrot 
and stick,'' the Federal Government provides needed financial 
resources, but with ``strings attached.'' While the Federal 
contribution is welcome, bear in mind that it contributes just 9 
percent of the resources in schools.
    States have accepted the responsibility of educating students and 
welcomed the opportunity to provide lifelong skills and learning. What 
we know about ``what works'' in our schools has come as a result of 
local and State initiatives.
    Federal funding has always targeted the most needy populations of 
students. Whether it is Title I, school nutrition or IDEA, your goal 
has always been to ``supplement and not supplant.'' This agreement 
between the Feds and the States has kept an important balance in the 
local traditions and the national importance of education.
    In recent decades you have been an important partner with the 
States in creating open doors for all children. I will share gently 
that you have also opened the doors on an incredible bureaucracy. Back 
in the square States, and in the triangle States, and the just plain 
strange States, we labor under the rules and requirements of the 
Federal Government. We implement these laws and accept the burdens of 
rules and regulations because we know, in most cases, that these 
increase opportunities for children. ``No Child Left Behind'' will 
strain that. And we will accept these news laws because we see the 
wisdom behind them.
    As you consider the guarantee of equity in education, please bear 
in mind the wonderful progress offered by ``No Child Left Behind.'' 
Please continue to honor the historic traditions of local control and 
States' rights. Please recognize the wonderful work being done by 
States and local districts to guarantee opportunity for all.

    Senator Dodd. Thank you very much, Ms. Catchpole.
    Mr. Price, thank you for being here.

   STATEMENT OF HUGH B. PRICE, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, THE NATIONAL URBAN LEAGUE, NEW YORK, NY

    Mr. Price. Thank you very much, Senator. I would like to 
thank you and Senator Enzi, Senator Wellstone, Senator Kennedy, 
obviously, and your designated hitter, Congressman Fattah, for 
having this hearing today. This committee has been a vigilant 
and vigorous friend of America's children.
    I have submitted written testimony, and in a shameless act 
of self-promotion, I would like to submit for the record an 
advance proof of a book I am going to be publishing at the end 
of August titled,``Achievement Matters.'' I could not resist 
that.
    Senator Dodd. I will not put the whole book in the record, 
but we will take note of it--with copies for all the Members 
who are here, of course. [Laughter.]
    Mr. Price. I will do that.
    The National Urban League is the oldest and largest 
community-based movement empowering our folks into the economic 
and social mainstream, and our more than 100 affiliates work 
vigorously to help ensure that our children are well-educated, 
because we believe as you do that education opens the door to 
the American mainstream.
    When I and many of us in this room were growing up in the 
1940s and 1950s, roughly 80 percent of all the jobs in the U.S. 
economy were either unskilled or semi-skilled jobs. We did not 
worry about leaving no child behind, because there was a place 
for them in the U.S. economy, whether they were well-educated 
or not.
    But today, 85 percent of all jobs are skilled or 
professional jobs, and therefore, education is critically 
important to economic success. What we have not done and what 
this is a struggle to do is to bring reality on the ground in 
our schools in line with the rhetoric that we will leave no 
child behind.
    We know from the National Assessment for Educational 
Progress that nearly two-thirds of our children in the fourth 
grade are reading below basic, which is not a sustainable 
situation, and that is why we at the Urban League have launched 
our Campaign for African American Achievement, to spread the 
gospel of achievement among our children. We have teamed up 
with Scholastic Magazine to create a guide called ``Read and 
Rise'' to help empower parents to know what they can do to 
ensure that their children are proficient readers.
    I want to salute President Bush, Senator Kennedy, all the 
members of the committee, and Secretary Paige for the 
bipartisan spirit that led to the passage of the Leave No Child 
Behind legislation. This is a very important leap forward in 
Federal leadership on this issue.
    Our view, frankly, is that vigorous Federal leadership and 
pressure on every other player is critically important. We 
believe that education is a Federal issue; it is a national 
issue. A child educated in Wyoming is just as likely to end up 
in Atlanta, and therefore, the State of Georgia has a much 
interest in the quality of education in Wyoming as Wyoming 
does. We think that the U.S. economy is contingent on and 
dependent on high-quality education across the country, so we 
believe that there should be no shirking on this issue, and I 
am delighted with the leadership that this committee has 
provided.
    The challenge now is to match the aspirations of the Act 
with the appropriations, and frankly--and I am where 
Congressman Fattah is--I think the equalization debate or the 
equity debate is critically important, but I think we almost 
have to call and raise that debate and ask the question, what 
is required in order to do what must be done to make sure we do 
not leave any children behind, and to do so with dispatch, not 
with all deliberate speed.
    Urban and rural school districts with the greatest number 
of kids who are at risk of being left behind have the least 
capacity financially to make certain that they are not. These 
districts are tax-poor, as we all know, and the States by and 
large have not equalized funding despite decades of litigation 
and favorable court decrees. We all know that there are 
substantial correlations between levels of school funding and 
school success.
    I think the discussion of the $5 billion that is part of 
the legislation and the debate over whether or not it will be 
there for me is the starting point of this conversation, not 
the ending point.
    What is necessary in order to get the job done? I think we 
know that we have to expand our quality child care for 
children. There have been debates, and we have been pushing 
coverage of Head Start; we have got to continue to push. We 
also have to be sure that there is high-quality child care with 
appropriate doses of pre-literacy preparation for the children 
of parents who are cycling off public assistance and moving 
into the labor force. Otherwise, custodial care for their 
children just repeats the cycle.
    Second, there has to be an intense emphasis on and full 
funding of the efforts to promote early literacy, with 
instructional approaches that are substantiated by research, 
reading specialists in all of the classrooms, and community 
mobilization efforts to make sure parents know what they have 
to do.
    We have to have high-quality teachers for all children. In 
New York City, the schools with the lowest scores on State 
exams have the highest percentage of uncertified teachers, and 
the suburbs of New York pay about 25 percent more than New York 
City does.
    I just came up from Nashville this morning, and the fellow 
who was driving us around there said that he and his wife are 
about to move from Nashville to Ridgefield, CT, because his 
wife is a Spanish teacher, and she is going to make so much 
more money in Ridgefield that it makes sense for them to uproot 
the entire family. That is Nashville's loss, obviously, and 
Ridgefield's gain. But it illustrates a point about how we have 
to think about teachers, and that is that we cannot think about 
it as a musical chairs, competitive, free market game. Our view 
is that we have got to pay teachers like professionals, and I 
see no reason why young teachers should not be paid in the same 
way that young lawyers, young accountants, and young M.B.A.s 
are. If we want more high-quality, motivated people in the 
profession, we have got to pay them like professionals, and 
that is going to cost money.
    We have to invest in extensive professional development for 
teachers, which requires fewer classes that they teach every 
week, more planning time, et cetera.
    We need intensive interventions for young people who, as a 
result of the diagnostic power of these tests, are at risk of 
falling behind. And summer school is not the answer. Just as 
the private sector has undertaken what might be called just-in-
time inventory management, we need just-in-time interventions 
the moment we see that a child is at risk of falling behind. 
That costs money.
    We need new public school models for kids. In Senator 
Kennedy's district in Springfield, our Urban League is 
partnering with the Massachusetts National Guard, and they have 
created the New Leadership Charter School which, in just a few 
years, is one of the highest-ranked schools in the City of 
Springfield. It has a longer school day--it goes half-day on 
Saturday. It goes about 2 dozen more days during the school 
year. That costs money.
    We need smaller schools. We have got to break up these 
mammoth, anonymous schools, whether it is new buildings or 
decentralizing or condominiumizing these massive middle schools 
and high schools, because the Bank Street College Study shows 
that there are substantial benefits that accrue from smaller 
schools. And we have to dramatically expand after-school 
programs for kids. We know that that helps to reduce their 
propensity to engage in teen crime and teen sex, and that there 
are academic gains that are quite significant.
    So I would urge you to do everything in your power to match 
the appropriations to the aspirations under the act. In health 
care, there is a favorite saying that ``an ounce of prevention 
is worth a pound of cure.'' We seem to have a blank-check 
attitude toward criminal justice in this country but are rather 
stingy when it comes to education. In our view--and I do not 
know the proper ratio, but I will make one up--$1 of education 
is worth $10 of imprisonment.
    Thank you very much, Senator.
    Senator Dodd. Thank you very much, Mr. Price. We appreciate 
your testimony.
    [The prepared statement of Mr. Price follows:]

                  Prepared Statement of Hugh B. Price
    The Urban League is the nation's oldest and largest community-based 
movement devoted to empowering African Americans to enter the economic 
and social mainstream.
    The Urban League movement was founded in 1910. The National Urban 
League, headquartered in New York City, spearheads our non-profit, non-
partisan, community-based movement. The heart of the Urban League 
movement is our professionally staffed Urban League affiliates in over 
100 cities in 34 States and the District of Columbia.
    The mission of the Urban League movement is to enable African 
Americans to secure economic self-reliance, parity and power and civil 
rights. We thank the Senate, and the chairman in particular, Senator 
Kennedy, and Senator Dodd for this opportunity to share the thoughts of 
the League on this important topic.
    The National Urban League is pleased that the President and 
Congress have made education a priority. We are concerned however, that 
education funding continues to be unequal between poor and wealthy 
school districts.
                     1. facts about school funding
    <bullet> It is well researched that school funding affects 
students' ability to succeed academically. Students in under-funded 
school districts routinely score lower on standardized tests than do 
students in well-funded districts.
    <bullet> Throughout the United States, there exists substantial 
variation--both across and within States--in per-pupil expenditures in 
elementary and secondary education.
    <bullet> Perceived inadequacies in the amount of funding provided 
for education, and concerns about the equity of its distribution, have 
led to education finance systems being challenged in the courts in many 
States, mostly on State constitutional grounds.
    <bullet> While much of the responsibility for resolving education 
policy issues has been relegated to the States, the Congress has 
identified a Federal role in influencing the amount and the 
distribution of education expenditures across school districts.
    <bullet> The ``No Child Left Behind Act'' requires the States to 
adopt a specific approach to testing and accountability, intended to 
lead to higher achievement for all children. The legislation sends the 
message that the Federal Government will be assuming a more forceful 
role in elementary and secondary education, one that makes 
unprecedented demands on States and local school districts to raise 
academic achievement and take direct action to improve poorly 
performing schools. In exchange for meeting the new demands, poorer 
school districts will receive additional Federal funding, and all 
States and school districts will have greater flexibility in how they 
use Federal funds.
    <bullet> But, the new law has not given States, students, teachers, 
parents and community-based organizations everything that is needed for 
our children to have a fair shot at succeeding. Even with the passage 
of the historic education bill, the education our children receive is 
not on par. The problem continues to be with the ``tough love'' 
approach that many States have already implemented with carefree 
abandon.
    <bullet> The question I ask of elected officials who are so 
obsessed with tougher standards and standardized tests, is whether 
their focus is just as intense on what it takes to help meet the higher 
expectations.
                2. looking at inequality in some states
    I have attached two figures to give examples of the size of 
inequality in per-pupil expenditures in four States, represented here 
on this committee: Connecticut, Massachusetts, Ohio and Tennessee. The 
range of resources available in the current operating budgets between 
school systems, however, can mask a key variable--depreciation. Urban 
sprawl brings with it the construction of brand new school buildings; 
buildings that because of their newness have high depreciation, versus 
the aging infrastructure in too many cities, where fully depreciated 
school buildings have no value. With the presence of technology, and 
the need to have technologically-ready buildings, the rate of 
depreciation has accelerated. Of course, many cities know this all too 
well--at least from professional sports team owners who want 20 and 30 
year old stadiums torn down for brand new facilities.
    But, I will keep to showing the differences in current expense per 
pupil. Figure 1 shows the range from the lowest to the highest per 
pupil expenditure among districts in each of the four States. It also 
shows the average, or mean per pupil expenditure, and the median (half 
the districts spend more, half spend less). The range, from high to 
low, in Massachusetts and Ohio is more than twice the mean expenditure 
of districts in the State. An easy way to summarize the amount of 
inequality is to compare the variance, or average distance from the 
mean, as a ratio to the mean. This way, inequality is expressed as a 
percentage of mean per pupil school expenditure in the State. Viewed in 
that relative way, the amount of inequality is greatest in 
Massachusetts, and least in Tennessee, among the four States of 
Connecticut, Massachusetts, Ohio and Tennessee.
    Why is inequality between school districts in a State a civil 
rights issue? Because school districts within States not only vary by 
expenditure per pupil, but they also vary in the racial composition of 
the school districts. By using the coefficient of variation to measure 
the school expenditure inequality in a State, it is easy to decompose 
that variance into a portion that follows the variation in the racial 
makeup of the State's school districts, and a portion that does not.\1\
---------------------------------------------------------------------------
    \1\ The National Urban League Institute for Opportunity and 
Equality did this work. The current expenditure per pupil cost was 
regressed on the percentage of non-white students in the school system, 
weighted by the square root of the number of students in the school 
system. The variance of that measure of racial composition can be shown 
to be a form of the S index, a commonly used measure of segregation. 
So, the correlation between that measure of the racial composition of 
the schools and per pupil expenditures decomposes the variance in 
school inequality to yield a component related to segregation between 
school districts.
---------------------------------------------------------------------------
    Figure 2 shows the extent to which the differences in the racial 
makeup of the school districts can be said to explain, or accompany, 
differences in per pupil expenditures. Among the four States, Ohio, 
where the level of segregation between the school districts accounts 
for 45.1 percent of the variation in per pupil expenditures, is where 
there is the strongest relationship between the racial composition of 
the school district and per pupil school expenditures. Tennessee, where 
the figure was 12.7 percent, has the weakest relationship between the 
racial composition of the schools and per pupil expenditures. 
Connecticut and Massachusetts were in between those two States.
    Data for other States could have been shown. This was just to 
highlight how there can be a relationship between differences in the 
racial makeup of school districts and their resources. What we must 
strive to do, of course, is to fight this unequal distribution of 
opportunity for America's children. But, we must also remember the 
unfortunate way that inequality may accompany some of the persistent 
disparities between the races.
       3. federal funding under the ``no child left behind act''
    Under the ``No Child Left Behind Act,'' significant new assessment 
and accountability requirements will be imposed on schools. The schools 
that may have the greatest difficulty meeting the new Adequate Yearly 
Progress requirements will likely be Title I schools. In addition, all 
of the sanctions for failing AYP apply only to Title I schools. But, 
this should not be. Federal sanctions for local schools should be tied 
to holding States and school districts accountable for all their 
children, in all their schools, not just sanctions for Title I funds to 
Title I schools. The Federal sanctions will be imposed on Title I 
schools for failing to meet its State set standards. Yet, Federal funds 
are not withheld when States fail to meet their State Supreme Court 
orders to equalize funding and educational opportunity. Also, a portion 
of Title I funds will be used for transportation for school choice and 
supplemental services, reducing the levels available for instructional 
improvement. New teacher quality requirements will be imposed, starting 
with Title I schools in the upcoming school year. Finally, Title I 
paraprofessionals are now subject to strict new quality standards.
    However, the Federal Government only provides enough funding to 
fully serve 40 percent of eligible students. For fiscal year 2002, the 
average funding per Title I child is $1,020. The ``No Child Left Behind 
Act'' unfortunately did not authorize moving to fully funding for Title 
I. Still, an increase of $5.65 billion is needed above the fiscal year 
2002 appropriations amount to reach the fiscal year 2003 ``No Child 
Left Behind Act'' level, and another $2.24 billion to get on a path to 
fully fund Title I in 10 years. That level of funding represents the 
promise made to our children, and must be kept.
    Title I funds could be used to expand pre-K programs, increase and 
improve professional development for teachers and training for 
paraprofessionals, and generally improve the quality of instruction. 
The ``No Child Left Behind Act'' was the culmination of well meaning 
compromises on all sides. Walking away from the commitment to fully 
fund the Act is, at best, disingenuous to that effort.
                4. national urban league's reform agenda
    Here is the National Urban League's reform agenda aimed at 
transforming all urban schools into high performing schools:
A. Assert No-Nonsense State Leadership and Responsibility
    Urban and rural children are caught in an unconscionable trap 
between lofty standards and lousy schools. I say the trap is 
unconstitutional as well. Why? Because it's the States that set the 
standards. It's the States that bear ultimate responsibility for low-
performing public schools. It's the States that tolerate stark 
differences along ethnic and socioeconomic lines in school facilities, 
academic tracking and teacher quality.
    States claim they cannot afford to invest more in urban and rural 
schools. That's baloney. They are squandering billions of dollars 
annually to incarcerate thousands of nonviolent offenders who aren't a 
menace to anyone.
    Conventional wisdom holds that public education is a local 
responsibility. I don't buy that argument either. Chances are that 
children raised on farms in Idaho will manufacture Saturn automobiles 
in Tennessee. Youngsters reared in Chattanooga will become investment 
bankers on Wall Street.
    Society has a compelling interest in the quality of America's high 
school graduates that justifies aggressive leadership by States and by 
the Federal Government.
    No longer should poor and minority children be held hostage to 
communities with low tax bases, with weak commitments from States to 
provide quality education, and skinflint taxpayers who oppose providing 
equal and adequate support for all schools in their State.
    No longer should unqualified teachers, outdated books, over-crowed 
classrooms and crumbling facilities and abandoned communities, stunt 
the untapped potential of our young people. We cannot afford to be so 
cheap.
    Having imposed high standards on all children, the Government now 
has the moral, financial and legal obligation to guarantee high quality 
education for every child.
B. ``Professionalize'' the Teaching Profession
    The hidden scandal behind those lousy test scores is the poor 
quality of teachers in many urban schools. After all, as one State 
education official said: ``Students cannot learn what teachers don't 
know.''
    Thousands of eminently qualified motivated teachers do a marvelous 
job in urban schools. But the undeniable reality is that in New York 
City, for instance, the schools with the lowest scores on the State 
exams have the highest percentage of uncertified teachers. In fact, 
according to the National Alliance of Black School Educators, of the 
80,000 teachers teaching in New York City, 13,000 are uncertified and 
are teaching in low-income districts.
    These schools also have more teachers who barely made it past the 
State certification exams. Compounding the problem is the fact that 
surrounding suburbs pay starting teachers 25 percent more.
    Given the projected shortage of principals and teachers due to 
retirement, plus the urgent need to increase teacher quality in urban 
and rural schools serving low-income children, the compensation offered 
education must be improved dramatically in order to create a strong 
demand for these jobs.
    One thing that would help is to increase salaries to levels 
comparable with other professions. If education truly is as important 
to society as we say, why not offer young graduates with masters' 
degrees the same initial salaries as young MBAs, attorneys and 
engineers? Since most urban and rural districts are strapped 
financially, the Federal and State governments should take the lead in 
financing the economic incentives needed to attract stronger educators 
to these school districts.
C. Challenging Courses for All
    When I was growing up, the teachers in my schools focused on 
educating a small proportion of pupils well. The economy needed a few 
managers and lots of laborers and factory workers. As a matter of 
equity and economic necessity, we expect all students today to meet 
lofty standards.
    Yet our school systems are mired in obsolete and elitist thinking 
about which students are capable of achieving at high levels. It's as 
though deep in their hearts, they believe the thoroughly discredited 
thesis of the borderline racist book, ``The Bell Curve.''
    How can black and Latino children possibly meet exacting academic 
standards when they're systemically excluded from rigorous courses 
geared to those standards?
    According to the Education Trust, high scoring white and Asian 
students are twice as likely as high scoring African American and 
Hispanic youngsters to be assigned to college prep courses. Those 
miserable test results in New York City have served also to expose the 
widespread pattern of tracking young minority children into basic and 
special education courses.
    School districts must cease these discriminatory educational 
practices towards African American, Hispanic and other children of 
color. Washington should not only sanction school districts that do not 
meet the State performance objectives. Washington should increase 
Federal assistance for those school systems that:
    <bullet> End tracking of African American, Hispanic and other 
children of color into dead-end, non-college preparatory courses, to 
increase their offerings of Advanced Placement Classes, or reward 
States that actively encourage districts to increase such classes;
    <bullet> Create programs of intervention and prevention of reading 
deficiencies to insure that children are not disproportionately placed 
in special education classes.
D. Close the Gap
    We should not stop at Title I funding, though. The gaps in 
achievement begin earlier. There must be ways to help children 
transition from home to school. And this means building the blocks for 
early literacy. When I say we all should focus on early literacy, I 
mean we should make certain that every child can read, write and 
compute at grade level--or better--by the time she or he graduates from 
elementary school. So, we acknowledge and appreciate the $1 billion 
request to support scientifically based early reading programs. But, 
that is only part of the bill due. We must also provide the needed 
funding for quality child care to make any proposals to reauthorize the 
Personal Responsibility and Work Opportunity Reconciliation Act 
(PRWORA) of 1996 a real chance for poor children to succeed.
    Parents can start their children out on the right track by 
enrolling them in high quality preschool programs and childcare that 
prepare them for reading. They shouldn't settle for babysitting or 
custodial care. Let's ensure that every Headstart program, preschool 
center, day care program and K-5 charter school is deeply committed to 
early literacy and has the skilled faculty, curriculum and, in the 
final analysis, results to prove it. Agencies that work with parents 
and caregivers, whether in parenting programs, job training centers or 
digital campuses, should impart an understanding of the importance of 
early literacy and help equip them for the critical role they must 
play.
    The National Urban League has teamed up with Scholastic, the 
world's largest publisher of children's books and magazines, to create 
a guide for parents on how to help children become good readers. The 
guide is called ``Read and Rise'' and it's chockfull of practical tips 
that really work. You can get it through the Urban League or from 
Scholastic. You can get it online at the National Urban League website 
at www.nul.org/readandrise and on Scholastic's website at 
www.scholastic.com/readandrise.
    We're determined to saturate our community with Read and Rise. 
We've started out by distributing 250,000 copies. Urban League 
affiliates are getting it out to parents and caregivers in their 
programs.
    The National Urban League is committed to America's children having 
the education opportunities they need. But, we must have the Federal 
Government equally committed. We cannot tolerate high dropout rates in 
any community, and support the targeted efforts to reduce the 
unbelievably high Hispanic dropout rates. We cnnnot tolerate leaving 
children behind because we cannot address limited English proficiency, 
or accommodate the needs of students from our growing melting pot. We 
cannot leave America's children in any trap set by adults.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] 79941.031
    
    [GRAPHIC] [TIFF OMITTED] 79941.032
    
    Senator Dodd. Mr. Rebell, thank you for being here.

STATEMENT OF MICHAEL A. REBELL, EXECUTIVE DIRECTOR AND COUNSEL, 
            CAMPAIGN FOR FISCAL EQUITY, NEW YORK, NY

    Mr. Rebell. Thank you very much, Mr. Chairman.
    In my testimony, what I would like to do is highlight and 
go into a little more detail on a couple of themes that have 
been raised by the members and others who have testified this 
morning.
    The first is the stark fact which was well-illustrated by 
Senator Dodd's chart that he put up at the beginning of the 
hearing, that in the United States of America today, the 
reality is that children with the greatest educational needs on 
average receive fewer resources than children with lesser 
educational needs. In a democracy of the 21st century, quite 
frankly, I think that that is a scandal. We are the only large 
industrial nation that reflects that pattern, and clearly, 
something needs to be done about it.
    This is not a new problem. This body has been aware of it. 
The Federal courts and the State courts have been aware of this 
issue for decades, and there has been progress, and let us 
acknowledge that.
    But I think we have come to a point, as Congressman Isakson 
was saying, that there has to be a new look here at a Federal-
State partnership and a new focus on the problem that so many 
speakers have already identified, that the No Child Left Behind 
Act has given us a very clear framework on what the goals are, 
how we can assess whether students are meeting those goals, but 
the core accountability here is not necessarily the children's 
test scores--it is whether both the State and Federal 
Governments are going to provide the resources that allow all 
children to have a fair opportunity to reach that goal.
    I would like to acknowledge both the progress that has been 
made in the No Child Left Behind Act on a bipartisan basis by 
President Bush and by all Members of Congress. I want to 
specifically express my appreciation for the work of this 
committee in the amount of funding that was provided for Title 
I last year, and for Senator Dodd and Senator Kennedy and 
others, who I know worked so hard to get that targeted funding 
and the education finance incentive grants, which are a real 
start in the right direction on what needs to be done.
    But obviously, there is a need for a lot more to be done. 
In thinking through where to go on this, the fact that we have 
had litigation, as Ms. Catchpole put it, in 43 out of the 50 
States over the last 30 years really provides an empirical 
groundswell of data and information not only on what the 
problems are but on what can be done about these problems.
    There has been litigation in virtually every State of the 
Union, and they have served an enormously beneficial purpose. 
The litigation in the State of Connecticut, for example, the 
Sheff case, really highlighted the extent to which, almost 50 
years after Brown v. Board of Education, the racial disparities 
in education remain enormous, and the concentration of poverty 
and minority students in large city districts has not been 
dealt with in any forceful way.
    I think the litigation in Senator Enzi's State, the Wyoming 
litigation, has gone the furthest of any State in the country 
in showing us a direction for remedying these types of 
conditions because the kind of detailed costing-out methodology 
that the Senator and Ms. Catchpole alluded to is really the 
direction in which I think all States need to go, in order to 
put a focus on exactly what the disparities are and what are 
the resources needed to overcome the disparities, in order to 
give all children an opportunity.
    I know it has been a complex task. I know the Campbell case 
was first decided in 1995, and it is now 7 years later, when 
you seem to have come to a point where most--not everybody is 
ever going to be satisfied--but most people think that Wyoming 
has come up with an equitable approach.
    I take note of the fact that in the neighboring State of 
Maryland, right in shooting distance--that is the wrong word; I 
am sorry--in hailing distance of where we are at the moment, 
there recently was another well-conceived educational reform 
that was based on a similar methodology of trying to determine 
precisely what resources are required to provide the key 
elements of education to all students throughout the State. I 
think this is consistent with the kinds of concepts that 
Congressman Fattah was talking about. He laid out seven areas 
of major resources that all children should be entitled to. 
That kind of analysis is the starting point of the 
methodologies they have used in Wyoming and Maryland to try to 
hone in on precisely what amount of dollars is needed to reach 
those goals. And as we have seen in Wyoming, it may be that 
because of the cost-of-living, the price of milk, whatever it 
is, in different areas of the State, you will not wind up with 
exactly the same amounts. It may be that to meet the needs of 
students with special circumstances, you are going to have to 
have extra funding to provide more time on task, to provide 
one-on-one instruction, and the other specific techniques that 
research and experience have shown really make a difference 
with at-risk children.
    So in the Maryland example, I think the proportion of 
supplemental funding that was determined through the costing-
out methodology was that at-risk children in inner city areas 
like Baltimore required something like 110 percent additional 
funding over the base adequacy amount for students in general 
throughout the State. That recommendation that came through 
this type of expert analysis was accepted by the Maryland 
legislature, and their new reform which is going to be phased 
in over the next 5 or 6 years calls for that type of increased 
funding to be going to students in Baltimore and other areas 
throughout the State.
    So the methodologies are there. I think that what really 
needs to be done now from the Federal point of view is to focus 
on both the need to fund the No Child Left Behind Act, and 
Title I and the IDEA in particular, up to their authorized 
levels or in a reasonable phasing approach, to begin the path 
of full funding of those.
    I would like to again emphasize the importance of the 
targeted concentration grants and the incentive grants in that 
regard, but I would also ask this committee to consider adding 
a requirement to the No Child Left Behind Act that would 
require States to undertake the kinds of costing-out analyses 
that have been done in Wyoming, have been done in Maryland, and 
have been done in 10 or 11 other States, so that in the first 
instance, we have a focus on what the actual needs are in 
dollar terms, and both the States and the Federal Government 
can know what it is that needs to be done.
    That kind of knowledge allows the public to be aware of the 
specifics of the issue, to know exactly what resources children 
in certain areas are not getting and what resources those 
children will need to meet the challenges of No Child Left 
Behind and the State standards. It allows Federal funding in 
future years to be focused on those areas of greatest disparity 
in particular States, and I think it also puts additional 
pressure where it should be, on the States in their own 
internal financial schemes to bring their funding up to a level 
that provides an adequate education to all of their children.
    Thank you.
    Senator Dodd. Very, very good. Thank you for that testimony 
as well.
    [The prepared statement of Mr. Rebell follows:]

                Prepared Statement of Michael A. Rebell
    Good morning, Mr. Chairman and members of the committee. I am 
Michael A. Rebell, the Executive Director of the Campaign for Fiscal 
Equity, Inc., an education finance reform advocacy organization in New 
York. I am also an adjunct professor and lecturer in education law at 
Columbia University. I would like to thank you for the opportunity to 
testify before the committee regarding the pervasive and devastating 
inequities in educational opportunity faced by millions of low-income 
and minority students in our Nation's public schools, and the clear 
links between increased educational equity and higher student 
achievement.
    The Campaign for Fiscal Equity is litigating CFE v. State of New 
York, a constitutional challenge to New York State's education finance 
system. In a landmark decision in January 2001, the trial court ruled 
that New York's current system of funding schools unconstitutionally 
denies hundreds of thousands of public school children--mostly low-
income, minority students in New York City and other impoverished urban 
and rural districts elsewhere in the State--of their right to the 
opportunity for a sound basic education. The court concluded that the 
inequitable school finance system in New York was depriving the State's 
neediest students of critical educational resources, including 
qualified teachers, adequate school facilities, appropriate class 
sizes, and up-to-date instructional materials and technology.
    CFE also operates the ACCESS Education Network, a national network 
of attorneys, policymakers, researchers, educators, and advocates that 
monitors school funding reform litigation and advocacy efforts across 
the country. The project operates a website, www.ACCESSednetwork.ora, 
that has up-to-date information on the history and status of education 
finance litigations and reform efforts in all 50 States.
    In my testimony today, I will first provide a national overview of 
educational inequities, and the detrimental impact of inadequate 
resources--both in funding and services--on the educational outcomes of 
low-income students. Next, I will describe the extensive body of 
research that has unequivocally concluded that equity in education 
funding improves educational outcomes, and that money does matter in 
educating all of our children to be successful, productive citizens. 
Finally, I will lay out, in broad terms, the role that Congress can 
take in achieving greater funding and resource equity in every State.
                   overview of educational inequities
                       school funding disparities
    Through inequitable and inadequate funding, our States and the 
Federal Government have, for decades, consistently left behind millions 
of low-income, rural, and urban school children as their wealthier 
peers take full advantage of the educational resources and 
opportunities that are made available only to them. While qualified and 
experienced educators, modern school facilities that are conducive to 
teaching and learning, and basic instructional materials like up-to-
date textbooks and science labs are taken for granted by suburban 
children and their families, in countless examples across the country, 
chiidren in rural and urban school districts--disproportionately from 
low-income, non-white families--can count on none of these to be 
provided to them in their years in public schools.
    In 2001, the National Center for Education Statistics released 
statistics that confirm that children who go to public schools in 
central cities in the United States--by and large, the country's most 
socioeconomically disadvantaged students--attend schools that, on 
average, have lower per pupil expenditures than non-urban schools. In 
the 1996-97 school year, per pupil expenditures in urban schools were 
below both the national average and the average of non-metropolitan 
public schools, when adjusted using the geographic Cost of Education 
Index (CEI). The public schools with the lowest poverty levels (less 
than 5 percent of the student population below the poverty level) had 
the highest per-pupil spending levels.
    In Pennsylvania, for example, the funding of Philadelphia's school 
district generates per pupil expenditures below the State average and 
far below the surrounding suburban districts, making it difficult for 
Philadelphia to compete in the market for qualified teachers, 
especially since Philadelphia has the State's highest cost of living. 
In New York City, despite the fact that the city faces the highest 
regional costs in the State of New York and has one of the highest 
concentrations of at-risk students, per pupil expenditures in New York 
City public schools are below the State average and significantly lower 
than the average in the surrounding suburban counties. In recent years, 
New York City has spent nearly $1500 less per pupil than the State 
average, and at least $4,000 less than the average in the nearby 
suburbs, even though those districts have very low concentrations of 
at-risk students. In 1998-99 (the most recent year for which data is 
available), New York City spent $9,623 per pupil, while in nearby Long 
Island suburbs, Great Neck spent $17,640 per pupil and Port Jefferson 
spent $21,613 per pupil. In Westchester County, the average per pupil 
spending was $13,651, with per pupil expenditures in one district 
exceeding $19,000 per year.
    Furthermore, during the 1990s, most increases in public elementary 
and secondary expenditures went to students in non-urban schools. 
Between 1991-92 and 1996-97, per pupil spending in central city schools 
remained essentially flat, with an increase (in constant 1996-97 
dollars) of only $45, or less than 1 percent, over that 5-year period. 
In contrast, per pupil spending in schools outside metropolitan areas 
increased over 9 percent over the same period. (NCES 2001).
    In sum, in contrast to basic principles of democracy and equal 
educational opportunity, the stark reality in the United States today 
is that children with the greatest needs are actually given the least 
resources. The United States is the only major developed country in the 
world that exhibits this shameful pattern of educational inequity.
    What is the cause of these extensive patterns of educational 
inequity? Much of it surely is the continuing legacy of the dual school 
systems that in many States had relegated African American students to 
separate, grossly under-funded school systems before the United States 
Supreme Court outlawed school segregation in Brown v. Board of 
Education. But the problem extends beyond racial segregation. Millions 
of low-income and rural students also are denied equal educational 
opportunities, by a system of education finance that relies on local 
property assessments and local property taxes to fund most educational 
expenditures.
    Residents of low-income school districts around the country, both 
urban and rural, typically tax themselves at much higher rates than 
residents of wealthier districts. Because of lower property values and 
reduced home-ownership in poorer areas, however, the greater tax effort 
in these communities produces significantly lower revenues. Lower 
income communities--invariably those with the highest spending needs 
for education and other important services--simply cannot fund public 
education at adequate levels; they require State and Federal funding to 
provide students in these communities with comparable educational 
opportunities.
    Ironically, this inequitable pattern of educational funding has its 
roots in one of the most notable attributes of the American education 
system--namely, local control of education. Although local governance 
remains a viable and significant vehicle for civic participation and 
commitment to education, the 19th century property-based funding system 
that continues to accompany it is an unnecessary and unacceptable 
anachronism in the 21st century. Just as virtually all of the States, 
with Federal encouragement, have established State-wide academic 
standards to ensure that all students are educated in accordance with 
contemporary needs, all of the States, with Federal encouragement, 
should ensure that adequate resources are in place to ensure that 
students in every school district have a fair opportunity to meet those 
standards. State-wide standards for funding adequacy, like State-wide 
standards for academic performance, need not conflict with continued 
adherence to the American tradition of local control of education. On 
the contrary, fair funding will, in fact, empower many poor school 
districts, especially in urban and rural areas, and allow them to 
actually take control of their educational destinies.
               funding inequities are a national problem
    The basic pattern of severe financing inequities has for decades 
impeded educational opportunities for low-income children throughout 
the United States. Almost 30 years ago, at a time when civil rights 
advocates were realizing that the promise of Brown v. Board of 
Education could not be achieved without remedying the huge resource 
deficiencies in the schools most minority students attended, this issue 
was brought before the United States Supreme Court. This 1973 
litigation, San Antonio Independent School District v. Rodriguez, 
starkly illustrated the basic pattern of funding inequities: per capita 
spending for the largely Latino students of the Edgewood, Texas school 
district was exactly half the amount spent on the largely Anglo 
students in the neighboring Alamo Heights school district (even after 
Federal Title I funding was taken into account), even though the 
Edgewood residents had assessed themselves a 25 percent higher tax 
rate. The United States Supreme Court acknowledged and decried this 
pattern of inequity, but because the court held that education is not a 
``fundamental interest'' under the Federal Constitution, it denied 
plaintiffs any relief. Since most State constitutions do consider 
education to be a ``fundamental interest'' and/or contain specific 
provisions that guarantee students a right to an adequate education, 
reformers turned to the State courts. In what has probably been the 
most extensive area of State constitutional activity in American 
history, since Rodriguez there have been litigations challenging 
inequities in State education finance systems in 43 of the 50 States.
    Overall, plaintiffs have prevailed in a majority of these 
litigations, especially in recent years. Indeed, since 1989, when the 
standards-based reform movement began to provide State court judges 
with ``judicially manageable'' tools for remedying the patterns of 
funding inequities, plaintiffs have prevailed in about two-thirds of 
these litigations. Thus, in States like Arizona, Kentucky, New Jersey, 
Texas, Vermont and Wyoming, extensive successful reforms have been 
implemented as a result of plaintiff successes in these litigations. In 
places like New Hampshire and Ohio, plaintiffs won major victories from 
the courts, but battles are still raging about the nature of the 
remedies that need to be put into place. In other States like Illinois, 
Pennsylvania, Rhode Island, and Virginia the cases were dismissed and 
the inequitable funding structures remain largely in place. The 
difficulty of achieving successful reforms at the State level is 
illustrated by the fact that in some States, like California and 
Connecticut, where plaintiffs won initial victories a number of years 
ago, problems persist and new litigations were commenced years after 
the initial cases had been terminated. Moreover, in other States like 
New York, North Carolina, and South Carolina, where the defendants had 
prevailed in the 1980s, plaintiffs who brought new cases in the 1990s 
have succeeded in getting the courts to reconsider the issues.
    In sum, while State courts have effectively remedied persistent 
inequities in a number of States, from a national perspective the 
complex and uneven nature of State-level education funding reform 
remains highly unsatisfactory. Millions of students in a majority of 
States continue to be denied the type of educational opportunities 
contemplated by the NCLB Act and in most of these jurisdictions neither 
the legislative nor judicial branches are acting to correct flawed 
financing systems. Clearly, persistent and egregious inequities in 
basic educational funding are a national problem that are inconsistent 
with the aims of the NCLB--and inconsistent with the effective 
functioning of our democratic society. Justice Powell's decision for 
the majority in Rodriguez acknowledged that ``The electoral process, if 
reality is to conform to the democratic ideal, depends on an informed 
electorate: a voter cannot cast his ballot intelligently unless his 
reading skills and thought processes have been adequately developed.''
    Because no claim was made in Rodriguez that any child was receiving 
less than the minimum amount of education necessary to attain this 
level of skills, the Supreme Court did not further consider the issue 
of whether the exercise of civic responsibilities under the First 
Amendment to the Federal Constitution would require some level of 
adequate educational opportunity. The standards-based reform movement 
and the NCLB Act have, however, now highlighted the issue of adequacy, 
and have demonstrated that there are feasible methods for assessing 
whether children are, in fact, receiving an adequate education and the 
importance of their doing so. Clearly, then, ensuring that all students 
are, in fact, provided the opportunity for a basic, adequate education 
has become a national issue, of which Congress must take note.
                  inequitable and inadequate resources
Teachers
    Qualified and experienced teachers--the most important resource in 
our public schools--are in shortest supply in schools that serve our 
neediest children. School districts with low teacher salaries cannot 
recruit and retain qualified teachers, losing the best-qualified 
candidates to wealthier school districts that can pay higher salaries 
or to better-paying jobs in other sectors of the economy. Courts in 
several States have ruled that inequitable outcomes of public school 
students are strongly linked to high proportions of unqualified 
teachers--measured in terms of lack of appropriate certifications, poor 
undergraduate preparation, low performance on teacher certification 
exams, and high teacher turnover--in low-income urban and rural school 
districts.
    In Arkansas, for instance, a court recently found that ``. . . 
disparity . . . in teachers' salaries . . . are so great that they work 
to destabilize the education system by driving qualified teachers away 
from districts where they are most needed. Schools and school districts 
with more disadvantaged students need more qualified teachers per 
student. However, the schools with the highest number of disadvantaged 
students are typicaily the schools which have the lower teacher 
salaries.'' For example, 94 percent of the students in the small rural 
Lake View School District in Arkansas are eligible for free or reduced-
price lunches. According to the court, ``Lake View provides an example 
of the limitations of a poor school district . . . Lake View has one 
uncertified mathematics teacher for all high school mathematics 
courses. The teacher is paid $10,000 a year as a substitute teacher 
which he supplements with $5,000 annually for school bus driving . . . 
In his geometry class he does not have compasses. Only one of four 
chalkboards is usable. His computer lacks hard- and software . . . and 
the printer does not work. Paper is in short supply and the duplicating 
machine, an addressograph, is generally overworked so that frequently 
documents, including examinations, have to be handwritten on the 
chalkboard.'' For Lake View students who do move on to college, ``the 
college remediation rate is 100 percent'' because of the grossly 
inadequate instruction and curriculum available to them in high school.
    Within New York State as a whole, according to the New York State 
Board of Regents, African American and Latino students are taught by 
the least qualified and most inexperienced teachers. Seventy-three 
percent of all minority public school students in New York State are 
enrolled in New York City public schools. New York City provides a 
classic example of the least-qualified teachers being put to work in 
the most challenging conditions in public schools in the State. The 
court, in 2001 in CFE v. State found that 13.7 percent of New York 
City's public school teachers were uncertified, compared with only 3.3 
percent of those in the rest of the State. The Court also took note of 
a study which indicated that 31.1 percent of teachers newly employed in 
New York City had failed the basic liberal arts State certification 
test at least once, compared with 4.7 percent in the rest of the State, 
and that 42.4 percent of the math teachers currently teaching in New 
York City's public schools had failed the math content test for 
certification at least once.
    The cause of this is no surprise. Salaries in the surrounding 
suburbs are 20-36 percent higher than those paid in the city, according 
to figures cited by the court. The result of this, year after year, is 
the same, as New York City and other low-wealth urban and rural 
districts face a chronic teacher shortage and are forced to fill 
thousands of slots with uncertified and under-qualified candidates. The 
New York Times reported just last week that for the 2001-2002 school 
year, only 27 percent of the 7,405 new teachers hired bay the New York 
City public schools possessed traditional certification. Another 23 
percent possessed the less-stringent alternative certification, but a 
full half of all new teachers hired this year possessed no 
certification at all and many of them lacked requisite course work or 
had failed the State certification exams.
    In North Carolina, the trial court in Leandro v. State recently 
found that the criteria needed to provide at-risk students with the 
equal opportunity to obtain a sound basic education are: effective, 
competent, and motivated principals; highly quality teachers who teach 
in their fields of expertise, safe and orderly school environments; 
high expectations of teachers and students; ongoing professional 
development for teachers; and smaller classes in early grades for at-
risk children. The court cited the North Carolina Commission on Raising 
Achievement and Closing Gaps (the ``Bridges Commission''), which 
concluded: ``Most policymakers, parents, educators, and researchers now 
generally agree that nothing is more closely tied to student 
achievement and underachievement than the preparation, support and 
quality of classroom teachers. It follows then, that nothing is more 
critical to our efforts to close the achievement gap than making 
certain that every student, especially those who have been 
traditionally underserved by public schools, has access to competent, 
caring, qualified teachers in schools organized for success.''
Facilities
    At-risk students are too often subjected to substandard school 
facilities that, at the minimum, hinder teaching and learning, and at 
worst, pose clear threats to their health and safety. The complaint in 
Williams v. State, a current class-action lawsuit in California filed 
on behalf of the State's disadvantaged school children, presents a 
sobering body of evidence concerning the conditions under which low-
income and minority children currently attend school in California.
    In San Francisco, Oakland, Fresno, Los Angeles, and elsewhere, 
schools are ``infested with vermin and roaches,'' have unstaffed and 
rarely updated libraries, lack computers in the classrooms, and conduct 
classes in rooms too small for the actual large class sizes and in 
spaces altogether unsuitable for instruction, such as open library 
spaces, gymnasiums, auditoriums, or poorly partitioned classrooms. For 
example, in Mark Keppel High School in Alhambra, the school's 2,100 
students must share a single science lab, meaning that many science 
classes forgo lab work altogether. In Stonehurst Elementary School in 
Oakland, a class of students meet permanently on the auditorium stage; 
from 9 to 1:30 every Tuesday and Thursday their teacher must compete 
against music lessens that occur simultaneously in the same auditorium 
space. The racial inequities in the case are clear: whereas 59 percent 
of all California public school students are students of color, 96.4 
percent of the population of the plaintiffs' schools is non-white.
    In Ohio, low-income students in both urban and rural districts are 
schooled in equally unacceptable facilities. Students in Cleveland, 
Youngstown, and other urban districts attend schools that are 
overcrowded and dilapidated, with insufficient funds for maintenance 
and major roof and window leaks causing on-going degradation. In the 
DeRolph v. State of Ohio school finance case, plaintiffs presented 
numerous examples that highlight the school facility problems in that 
State. At the intermediate and high schools in Coal Grove, Ohio, there 
are no art or music rooms. The intermediate school has no science labs, 
and one shower room serves both boys and girls. One of the high 
school's science labs has no running water or gas. In the town's 
elementary school, temperatures often exceed 100 degrees at the 
beginning and end of the school year; if more than three teachers run 
fans at the same time, however, the school's circuit breaker fails. In 
Mt. Gilead, some students are being educated in former coal bins and in 
Flushing, students as recently as the early 1990s had to use outhouses.
    Compare these conditions to facilities at prosperous Granville High 
School 100 miles from Coal Grove, which has five language labs with 
cordless headsets, a greenhouse between two biology rooms, state-of-
the-art classrooms and technology for industrial arts and computer-
assisted design, art facilities with separate rooms for kilns and 
sculpture, carpeted locker rooms with individual showers and installed 
hair dryers, a library with rooms for group study, and dark room and 
television production facilities.
    The disparities in facilities between school districts in Ohio are 
rooted in tremendous funding inequities. In 1999-2000, Cuyahoga 
Heights, a wealthy Cleveland suburb, received $16,447 per student in 
State and local funds. Tri-Valley Local, a low-wealth rural school, 
received just $4,532 per student. This pattern is mirrored by countless 
other examples across the State. Some of the most egregious facilities 
problems in Ohio have since been addressed through the Ohio School 
Facilities Commission, established in 1997 in response to the Ohio 
Supreme Court's decision in favor of piaintiffs in the school funding 
litigation, but all sides agree that billions of dollars more are 
needed, in Ohio alone.
    These examples, however, are not limited to Ohio and California, 
but are indeed representative of a pervasive national problem, with 
countless other similar examples of unacceptable school facilities in 
school districts in every State.
         impact of inadequate resources on student achievement
    One crystal-clear conclusion reached by policy researchers, courts, 
and State governments around the country is that inequitable and 
inadequate education funding has a direct and damaging impact on the 
educational achievement of low-income, non-white children. In the 
United States, poverty and race are inextricably linked: in the late 
1990s, roughly 35 percent of black and Latino children were living in 
poverty, compared with about 15 percent of white children. (U.S. Census 
Bureau, 1998).
    Most recently, in Maryland, the State Commission on Education 
Finance, Equity, and Excellence completed a study of the State's public 
school funding in January 2002. The Commission found a strong and 
consistent correlation between a school's percentage of students 
eligible for free or reduced-price lunch and the school's test scores. 
The commission concluded that schools educating low-income students 
need more resources to be able to improve outcomes for their students.
    Nationally, long-term trends in academic performance, assessed by 
the National Assessment of Educational Progress (NAEP), show a 
persistent and troubling achievement gap between white and non-white 
students in the United Stales. The Department of Education began 
monitoring this achievement gap in 1971, and until the late 1980s it 
found that there was significant progress in reducing the disparities 
in educational outcomes between minority and non-minority students due 
to the extensive Title I and other supplemental funding that took hold 
in the 1970s. During the 1990s however, since the level of Title I 
funding was reduced, the gap has steadily widened once more.
    The achievement gap between whites and non-whites in reading 
performance is particularly disturbing. In 1971, the average reading 
score of black 17-year-olds was below that of white 13-year-olds. 
(NCES, Condition of Education 2001, Indicators 10, 11). By 1988, the 
black-white gap in reading scores had dropped by over 60 percent, from 
a gap of 53 points in 1971 to 20 points in 1988. By 1999, however, the 
difference in white and black reading scores had steadily risen 55 
percent from 1988 levels to a 31-point gap. In 30 years, the only 
``progress'' made by black students was that the average black 17-year-
old's reading score was now nearly on par with--but still slightly 
below--that of the typical 13-year-old white child. The average 
Hispanic 17-year-old was also outperformed in reading skills by average 
13-year-old white students. Overall, achievement by all three groups 
has improved, but the gaps between white and non-white students 
persist.
    Trends in mathematics performance are similar. From 1973 to 1999, 
white 17-year-olds' performance on the NAEP has been consistent: the 
average white high school senior is proficient in ``moderately complex 
procedures and reasoning,'' which includes an understanding of numbers 
systems, geometric concepts, and the ability to undertake such tasks as 
computing with decimals and fractions, evaluating formulas, 
understanding graphs, and using logical reasoning to solve problems. 
The average black 17-year-old is proficient in none of these basic 
skills. The average mathematics scale score of a black 17-year-old in 
1999, 283, is identical to the average score of the average white 13-
year-old. Like their eighth-grade white counterparts, black high school 
seniors are proficient in ``numerical operations and beginning problem-
solving,'' described as ``an initial understanding of the four basic 
operations,'' or the basic ability to add, subtract, multiply, and 
divide, as well as the ability to analyze ``simple logical relations.'' 
Hispanic 17-year-olds fared slightly better, with an average score of 
293, which still placed them in the same achievement rubric as their 
black peers. (NCES, Condition of Education 2001, Indicator 12).
    According to 2000 Census data, 9.4 percent of white Americans 
between the ages of 20-24 are not high school graduates. The rate of 
high school dropouts among blacks aged 20-24, at 19.5 percent, is over 
twice that of whites. Hispanics fare the most poorly: 37.7 percent of 
Hispanics in that age cohort have not finished high school. These 
statistics correlate closely to college attendance and graduation 
rates: while 34 percent of whites in their late 20s hold at least a 
bachelor's degree, only 17.8 percent of blacks and 9.7 percent of 
Hispanics have graduated from college. According to Harvard professor 
Christopher Edley, the consequences of this ``growing separateness by 
color and class in our schools . . . are evident in learning outcomes, 
but also in such broader societal outcomes as shared community and 
intercultural competence in the workplace, the political arena, and the 
civic sphere generally.''
    The economic consequences of high school dropouts are also 
significant, according to analyses by Columbia University economist 
Henry Levin. In 1994, Levin concluded that as at-risk populations make 
up a larger proportion of the labor force, ``their educational 
preparation will be visited on the competitive positions of the 
industries and States in which they work and on our national economic 
status. Employers will suffer in terms of lagging productivity, higher 
training costs, and competitive disadvantages.'' Clearly, this is 
already happening. In three national education summits, convened in 
1989, 1996, and 1999, attended by the President, governors and chief 
State school officers of all 50 States, and national business leaders, 
participants agreed that a set of national educational goals was 
necessary to prepare American students to compete in the national and 
global economies. The general consensus of these national leaders, as 
indicated in a report issued from the 1996 summit, was that the 
national education system was not keeping up with the pace of change in 
the larger economy, which requires that all high school graduates, 
whether they are continuing their education or are moving directly into 
the workforce, have higher levels of skills and knowledge, including 
the ability to ``think their way through the work day, analyzing 
problems, proposing solutions, communicating, working collaboratively, 
and managing resources such as time and materials.''
    In the decades ahead, as non-white students increasingly constitute 
the majority of the populations in States including California, Texas, 
Mississippi, Louisiana, and New Mexico, the societal costs of allowing 
these inequities to remain unchecked and unremedied will become 
progressively more intolerable and unacceptable to business leaders and 
to the Nation as a whole.
            funding equity will improve educational outcomes
       research links adequate resources with student achievement
    Although some reports and scholarly articles have asserted the 
inherently illogical proposition that ``money doesn't matter'' in 
regard to educational achievement, most education economists take issue 
with these conclusions and the statistical methodologies used to reach 
them and find clear links between additional funding of specific 
resources and higher student achievement. (See, e.g., Hedges and 
Greenwald, ``Have Times Changed? The Relation Between School Resources 
and Student Performance'' in ``Does Money Matter?'', Gary Burtless, ed. 
Washington, DC.: Brookings Institution Press, 1996).
    Judges in 11 of the 12 cases in which testimony has been made by 
Eric Hanushek--a prominent promoter of the notion that ``money doesn't 
matter''--have rejected this position because of their common-sense 
recognition that, as stated by the chief justice of the Arizona Supreme 
Court:

          [L]ogic and experience tell us that children have a better 
        opportunity to learn biology and chemistry, and are more likely 
        to do so, if provided with the laboratory equipment for 
        experiments and demonstrations; that children have a better 
        opportunity to learn English literature if given access to 
        books; that children have a better opportunity to learn 
        computer science if they can use computers, and so on through 
        the entire State-prescribed curriculum . . . It seems apparent 
        to me, however, that these are inarguable principles. If they 
        are not, then we are wasting an abundance of our taxpayers' 
        money in school districts that maintain libraries and buy 
        textbooks, laboratory equipment and computers. (Roosevelt 
        Elementary Sch. Dist. No. 66 v. Bishop, 877 P2d 806, 822 (Ariz. 
        1994) (Feldman, C.J., specially concurring).

    In the real world, no one doubts that ``money makes a difference.'' 
The outcomes of the landmark Tennessee STAR Project class size 
reduction experiment demonstrate this point well. STAR was a 
comprehensive, carefully planned and executed study that followed the 
academic achievement over time of thousands of students placed in 
classes of different sizes. A number of analyses of the STAR study have 
concluded that students placed in small classes from kindergarten to 
third grade--especially poor and minority students--show lasting gains 
in educational achievement. In the most recent analysis of STAR data, 
released in 2001, Princeton economists Alan Krueger and Diane Whitmore 
found that the average test scores of black students who spent their 
first four years in smaller classes were consistently higher throughout 
their time in public school than peers who were not enrolled in small 
classes from grades K-3. Krueger and Whitmore concluded that if all 
students were enrolled in small classes, the persistent gaps in 
standardized test scores between black and white students would be 
markedly reduced.
    A number of prominent education experts have found that money spent 
on specific educational resources has a direct and dramatic effect on 
student achievement. Ronald Ferguson of Harvard's Kennedy School of 
Government has conducted research that links better qualified teachers, 
teacher salaries, and higher student performance. Dr. Ferguson has 
argued that highly qualified teachers can help a student overcome other 
obstacles to success. ``While factors like poverty and parents' 
education levels are often linked with low achievement,'' said Dr. 
Ferguson, ``the effect of excellent teachers can be so strong that it 
compensates for other factors and helps disadvantaged students achieve 
at high levels.''
    Education experts also widely agree that additional time on task is 
an essential part of ensuring that at-risk students have the 
opportunity for adequate educational opportunities. Through increased 
instructional time, provided by, among other things, extended school 
day and summer programs, student performance rises. According to 
Christine Rossell, a Boston University political scientist, time on 
task is the single greatest predictor of student achievement. Herbert 
Walberg, a University of Chicago education researcher, has concluded 
that after-school programs, Saturday programs, and summer school all 
improve learning.
    Let me give a specific, powerful example, from my experience in New 
York, that is applicable nationwide. Reading Recovery is a remarkably 
successful literacy program for the lowest performing first-graders, 
many of whom are low-income, minority students. Participating students 
receive daily one-on-one 30-minute tutoring sessions from certified 
teachers who have at least 3 years of teaching experience and receive 
extensive professional development. Even though students are chosen 
because they are in the bottom 20 percent of their classes, between 
1989 and 1996, 83 percent achieved grade-level proficiency after only 
20 weeks in the program. The impact of Reading Recovery has been like 
putting a rocket on a kid's back. But unfortunately, most schools and 
districts educating low-income students do not have sufficient funds to 
implement the program fully. In New York City in 1999-2000, there was 
funding for only 3,000 of the 17,000 students in the bottom 20 percent 
of their first-grade classes, and cuts in next year's budget will 
likely reduce that number.
    The ultimate truth is that money well-spent will make an enormous 
difference. In the past, some school districts that received increased 
funding misused their resources. Accountability means currently being 
implemented by most States and the NCLB Act are geared to ensure that 
school officials properly utilize current funding. At this time, the 
focus should be on methods for assuring that poor and minority students 
have critical educational resources, such as qualified teachers, pre-
kindergarten, small class sizes, and extended school days and school 
years. State legislatures, executive branches, and courts have an 
obligation to the students in poorer districts to appropriate a fair 
share of educational resources--and to see that effective 
accountability mechanisms are put into place that ensure that these 
additional resources are effectively used so that they result in actual 
and sustained gains in student achievement.
             costing-out: linking resources to actual need
    There is a broad national consensus on the resources needed by at-
risk students to be successful: highly qualified teachers, small class 
sizes, appropriate instructional materials, safe and modern school 
facilities, and continuous intervention programs that provide ``more 
time on task'' including early childhood education, remediation 
programs, and after-school programs, among others. While common sense 
would indicate that aid to schools should be based on the actual costs 
of these resources, and the specific needs of students, only recently 
have States begun to seriously link funding to actual need and to 
undertake the critical task of ``costing out'' the per pupil 
expenditures necessary to provide students in low-wealth districts 
equitable educational opportunities.
    A costing-out study determines the amount of money actually needed 
to make available all of the educational services required to provide 
every child an opportunity to meet the applicable State education 
standards. A variety of approaches for undertaking such studies have 
been used in recent years in many States, including Alaska, Illinois, 
Ohio, Oregon, New Hampshire, Wisconsin, and Wyoming--in some cases as 
part of the development of a new funding system ordered by a State 
court.
    Historically, most State education finance systems have purported 
to establish, as their basic building block, a ``foundation amount'' 
that presumably would guarantee sufficient funding for each child to 
obtain an adequate education. From the beginning, however, in most 
States no real methodology was used to determine what the foundation 
amount should be. Instead, legislatures tended to establish the 
foundation based on the amount of funding they were willing to allocate 
for educational services with little regard for actual needs. Moreover, 
the base amounts that initially were established eroded dramatically 
over time because of budget pressures, competing political priorities, 
and inflation. The significance of the costing-out approach is that it 
determines a true foundation amount by identifying the specific 
resources and conditions necessary to provide all children a reasonable 
educational opportunity and then systematically calculates the amounts 
necessary to fund each of these prerequisites.
    A good example of the costing out approach is the study recently 
conducted in Maryland. Outside consultants convened expert panels of 
experienced educators to designate the resources schools need in order 
to produce acceptable levels of student achievement. For low-income 
students, the panels identified specific educational resources, 
programs, and services that they deemed necessary, primarily more 
teachers and other personnel to provide full-day pre-kindergarten and 
kindergarten, smaller class sizes, and extended day and summer school 
programs.
    After reviewing this costing-out study and two others, the Maryland 
commission concluded that the base per-pupil cost of providing an 
adequate education to students who are not ``at-risk'' of academic 
failure is $5,969 in Maryland, and that providing adequate educational 
resources to enable low-income students to attain the targeted passing 
rates for all students on State assessments will require an additional 
$6,566 per pupil, for a total of $12,535. Although, in practice, school 
districts will have flexibility in how they spend the additional money, 
the commission's report presented examples of how it expects these 
funds to be used. The commission's recommendations emphasize services 
and supports for pre-school and elementary school children to address 
learning deficiencies as early as possible.
    An example of a hypothetical Maryland elementary school illustrates 
the essential resources additional funding provides. In an elementary 
school of 1,000 K-5 students plus 52 low-income students in pre-
kindergarten and the statewide average of 31 percent low-income 
students, the additional funds would total $2,377,000. To properly 
staff and support the pre-K, kindergarten, smaller class sizes, and 
extended day and summer school programs and support services deemed 
essential for the low-income students, this money would be spent on 22 
additional certified teachers, approximately 30 additional teacher 
aides, two library/media aides, four guidance counselors, two 
therapists, two health technicians/nurses, two parent liaisons, and two 
additional administrative support staff. Some of these funds would also 
purchase additional technology and professional development.
                     proposed congressional action
    Congress can take the lead in focusing attention on inequitable 
educational opportunities as a national problem that requires sound and 
consistent solutions in every State. First, Congress should amend the 
``No Child Left Behind Act'' to ensure the resources necessary to 
provide all children the opportunity to meet high standards. There is a 
broad consensus on the programs and reforms that are needed to increase 
student achievement; as Congress rightly supports high standards for 
all children, it must not let these meaningful standards-based reforms 
become unfunded mandates to States, districts, and schools. The 
evidence establishes that qualified teachers, adequate facilities, 
appropriate instructional materials and technology, and increased 
instructional time are the key resources needed to raise student 
achievement. All students can learn, and learn to high standards; 
Federal support of these critical resource areas is necessary to ensure 
that support of high standards does not push the neediest children 
further behind. It is incumbent upon the Federal Government to 
contribute its fair share to fully funding these critical resources as 
a major step in rectifying the gross inequities found in every State. 
To do this, Congress should act immediately to fully fund both IDEA and 
Title I--which has clearly been successful in making significant 
strides to close the achievement gap in the past--and to ensure 
guaranteed authorization of full funding for the entire duration of the 
act.
    Second, Federal education funding in general, and Title I funding 
in particular, should be linked to a comprehensive, methodical, and 
needs-based costing-out of standards-based education in every State. 
The Federal Government should couple full funding of Title I and IDEA 
with accurate assessments of the actual costs associated with the 
resources funded by Federal aid, like facilities and qualified 
teachers. For example, as a condition for maintenance of existing 
funding, or increased Federal aid, every State should demonstrate that 
it has conducted a thorough costing-out of standards-based education, 
and can link Federal aid to correcting specific resource deficiencies, 
such as qualified teachers in every class, identified through this 
process. Sound costing-out processes should take into account the 
critical resources necessary to raise student achievement, regional 
cost variations, and the numbers of impoverished students, English 
language learners, and special needs students in individual districts.
    Linking Federal aid to costing-out at the State level would 
accomplish three major goals: First, it encourages States, regardless 
of litigation status, to determine the actual costs of educating 
children based on a consistent, specific set of State-designated 
standards. In many States, this would be the first time the true costs 
of adequate educational opportunities would be ascertained. Second, it 
would allow the Federal Government to target aid toward remedying 
specific deficiencies in line with standards that will be used to 
assess their effectiveness. It will be much more difficult for critics 
to levy the charge that increased funding is being ``thrown at'' the 
problem when it is clearly tied to specific resources and goals. 
Finally, it holds the government at the Federal and State levels 
accountable for reform. Too often, ``accountability'' in education 
debates simply refers to punitive measures on children; it is time to 
recognize that every level of the system must be held accountable, and 
by costing-out education in specific, transparent terms, it is harder 
for the Government to shirk its own accountability for the resources 
crucial to making reforms work.
    In conclusion, as Americans and members of a democratic society, we 
must ground our actions in the basic premise that all children--even 
those put at risk of academic failure by poverty, race, ethnicity, and 
immigration status--can learn. As Justice Leland DeGrasse eloquently 
articulated in his decision in CFE, ``Demography is not destiny. The 
amount of melanin in a student's skin, the home country of her 
antecedents, the amount of money in the family bank account, are not 
the inexorable determinants of student success.'' All children, he 
concluded, ``are capable of seizing the opportunity for a sound basic 
education if they are given sufficient resources.'' It is time to 
tackle our collective responsibility to all children head-on and with 
the fullest resources we can provide. If, in the years and decades 
ahead, we are to truly leave no child behind, we must remedy the 
missing link to success for the ``No Child Left Behind Act,'' and 
ensure that adequate resources are both put into place and effectively 
used to provide all students with a meaningful educational opportunity.

    Senator Dodd. I am pleased to introduce Ms. Lang, whom I 
have already talked about as being a teacher for many years. In 
fact, I have a sister who has about the same length of teaching 
time in Connecticut as Ms. Lang; she teaches as an early 
childhood development specialist in Hartford, CT, at the 
Kennelly School, one of the inner city schools.
    I have spoken at every public high school in my State in 
the last 15 years, and I go back to my inner city schools 
almost every year, so I am very familiar with the high schools 
in Bridgeport and Fairfield where you live, and I get lobbied 
extensively--Judy, you will appreciate this--by my sister on 
education issues. I was at her school recently and did some 
reading for her, which I enjoyed.
    So it is a pleasure to have a teacher with us today who I 
think tells an important story. We appreciate your presence.

STATEMENT OF MARY-BETH LANG, TEACHER, BRIDGEPORT, CT, ON BEHALF 
             OF THE NATIONAL EDUCATION ASSOCIATION

    Ms. Lang. Thank you. Good morning, Senator Dodd and Senator 
Enzi.
    In 8 days, I will assume the presidency of the Bridgeport 
Education Association, an affiliate of the National Education 
Association; but today I come to you as a teacher, a parent, 
and a citizen who is convinced that today's education system is 
the foundation of tomorrow's society. I am grateful to the 
committee for giving me a few minutes of your valuable time.
    I suspect that few in this room except Senator Dodd know of 
the Rooster River in Connecticut. Most of the time, it is 
little more than a creek that flows into the Long Island Sound. 
On the west side of the Rooster River is the City of Fairfield, 
the town where I have lived and raised my children. On the east 
side is the City of Bridgeport, the city where I have taught 
for 32 years. Maps will show a dotted line down the Rooster 
River that, in terms of educational opportunities, might as 
well be an ocean.
    My children attended a school with spacious classrooms, a 
well-stocked library, an all-purpose room, as well as a 
separate gym. Behind the school was an extensive playground 
with outdoor gym equipment and two ball fields. Specialists 
were on hand to assist and support the teachers.
    When she was in the third grade, my daughter had no trouble 
getting a speech teacher to work with her because she said her 
R's funny. There was a full-time nurse on duty, and in high 
school, my daughter had access to a full range of advanced 
placement courses.
    I could not be more pleased with the educational 
opportunities provided by our public schools. I would love to 
take all the credit for my children's academic achievement, but 
it would not have happened with the excellent Fairfield public 
schools.
    How different the stories are on the other side of the 
Rooster River. The Bridgeport schools face a set of serious 
challenges. Families speak a variety of languages; the 
population is poorer and more transient; the educational level 
of parents is lower, and the students enter the primary grades 
with less preschool experience.
    Usually, when our society faces large problems, we attack 
them with more resources. We know that a bridge across the 
Hudson River will cost more than one over the Rooster River, so 
we plan accordingly. But as the members of this committee 
probably know better than anyone, this is not true of our 
educational challenges.
    If you visited the Bridgeport schools, especially after 
visiting other towns in Fairfield County, you would first be 
struck by the physical structures. Old, crowded schools are 
surrounded not by grassy playgrounds but by asphalt parking 
lots. Some schools have no recreation areas and must hold gym 
classes in the halls. Libraries are stacked with warehouse 
overstocks.
    Good education can occur in an old building, and to be 
sure, we have dedicated teachers in Bridgeport providing 
wonderful experiences for our students. But they are fighting 
an uphill battle. Students do not have access to the 
specialists they need, and as a result, correctable learning 
problems become obstacles to learning.
    For example, I am currently working with a student whom I 
fear will fall further behind in reading unless his speech 
problem can be corrected. We have high teacher turnover as 
certified teachers, especially in math and science, can find 
higher-paying jobs with better facilities in neighboring towns. 
In all, 100 of our 1,600 teachers are not fully credentialed by 
the State of Connecticut.
    Class sizes are held in line only by our union contract and 
then only after an annual filing of a contract grievance. As a 
union leader, I should not have to fight for something so 
clearly in our children's interest.
    Students do not get the enrichment that a strong art and 
music program would bring.
    We face a critical shortage of substitute teachers. When a 
teacher is absent, students are scattered into other 
classrooms--a practice which is disruptive to their learning 
and to the now overcrowded class to which they have been 
assigned.
    Students with no full-time nurses must rely on teachers and 
administrators to distribute medications.
    The Senate knows what has to be done. The new education law 
included requirements to close the achievement gap for low-
income and minority students. That is the gap between Fairfield 
and Bridgeport.
    You called for helping all students to meet high standards 
and for ensuring a highly-qualified teacher in every classroom. 
Now you must face the reality that you have set a goal for our 
Nation that will be achieved only with adequate resources.
    In Bridgeport, we already have three schools identified as 
in need of improvement. Three years ago, these schools were 
given additional funding from our State surplus. However, in 
the past 2 years, our State has faced budget shortfalls. This 
funding has been cut dramatically, and I fear that the new 
Federal mandates will only serve to hurt these schools more.
    Strengthening teacher quality also will not be possible 
without increased funding. In Connecticut, we have a statewide 
teacher training and mentoring program known as BEST. In the 
suburbs, one-on-one mentoring has helped many new teachers 
navigate the sometimes overwhelming first years in the 
classroom. In Bridgeport, however, lack of funding has made it 
difficult for BEST to work well. Our large turnover has left 
few mentors for new teachers. Individual mentors are assigned 
many new teachers but are not given the time or resources to 
assist them.
    There are many complex, interlocking reasons for the 
disparity between Bridgeport and Fairfield schools--the loss of 
industrial jobs in Bridgeport, the transient population, the 
drug use and racism may be on the list. I do not want to argue 
about whether the fault lies with the parents, with society, or 
with our public institutions. I do know that the fault does not 
lie with the children.
    The daughter of a newly-arrived immigrant comes into the 
world as innocent as the son of a CEO. Our challenge is to see 
that they have the same opportunities. The only way to meet 
this challenge is to guarantee resources to our most neglected 
schools.
    Senator Dodd has pointed out the gaps in current Federal 
assistance: Title I fully serves only 40 percent of students 
eligible for assistance; the Federal Government's commitment to 
special education remains significantly underfunded; the 
President has proposed cuts in Federal support for high-quality 
teacher training and a freeze for after-school and bilingual 
educational programs.
    I urge Congress to provide the necessary resources, 
particularly for Title I, special education, and teacher 
quality programs. Without such help, you are simply setting 
schools like mine up for failure.
    Before I conclude, I would like to express my concerns 
about the voucher proposals. We cannot afford to take up to $4 
billion of our Federal education budget and feed it into 
private schools. Instead, we should be using this funding and 
more to bring the resources of our inner city schools up to the 
level provided in the suburbs.
    Once Bridgeport schools have the same resources as 
Fairfield schools, I suspect you will not find many people 
looking for vouchers.
    I hope that you and your fellow Senators will provide the 
leadership and the budget to equalize the educational 
opportunity between our poorest and richest communities, 
whether they are separated by a small river in Connecticut or 
are miles apart.
    I wish to thank you for your time, and in particular, thank 
Senator Dodd for his commitment to education.
    [The prepared statement of Ms. Lang follows:]
                  Prepared Statement of Mary-Beth Lang
    Chairman Kennedy and members of the committee, my name is Mary-Beth 
Lang. In 8 days I will assume the presidency of the Bridgeport 
Education Association, an affiliate of the National Education 
Association. But, today I come to you as a teacher, a parent, and a 
citizen who is convinced that today's education system is the 
foundation of tomorrow's society. I am grateful to the committee for 
giving me a few minutes of your valuable time.
    I suspect few in this room, except Senator Dodd, know of the 
Rooster River in Connecticut. Most of the time it is little more than a 
creek that flows into Long Island Sound. On the west side of the 
Rooster River is the City of Fairfield, the town where I have lived and 
raised my children for 27 years. On the east side is the City of 
Bridgeport, the city I have taught in for 32 years. Maps will show a 
dotted line down the Rooster River that, in terms of educational 
opportunities, might as well be an ocean.
    My children attended a school with spacious classrooms, a well-
stocked library, an all-purpose room for lunch and scout meetings, as 
well as a separate gym. Behind the school was an extensive playground 
with outdoor gym equipment and two ball fields. Specialists were on 
hand to assist and support the teachers. When she was in third grade, 
my daughter had no trouble getting a speech teacher to work with her 
because she said her R's funny. There was a full time nurse on duty. In 
high school, my daughter had access to a full range of advanced 
placement courses. She and her friends left high school for the finest 
universities in the world. She is now doing graduate work in Senator 
Murray's State, at the University of Washington.
    I couldn't be more pleased with the educational opportunities 
provided by our public schools. I would love to take all the credit for 
my children's academic achievement, and I will take some credit, but it 
would not have happened without the excellent Fairfield schools. How 
different the stories are on the other side of the Rooster River.
    Let's be frank, the Bridgeport schools face a set of serious 
challenges. Families speak a variety of languages, the population is 
poorer and more transient, the educational level of the parents is 
lower, and the students enter the primary grades with less preschool 
experience. You won't be surprised to know that my children entered 
school not only knowing what a giraffe was, but having actually seen 
giraffes more than once. In Bridgeport our students do not know what a 
giraffe is, or a pier, or many other things more affluent students take 
for granted.
    Usually, when our society faces large problems, we attack them with 
more resources. We know that a bridge across the Hudson River will cost 
more than one over the Rooster River, and so we plan accordingly. But, 
as the members of this committee probably know better than anyone, this 
is not true of our educational challenges.
    If you visited the Bridgeport schools, especially after visiting 
other towns in Fairfield County, you would first be struck by the 
physical structures. Old, crowded schools are surrounded, not by grass 
playgrounds, but asphalt parking lots. Schools have no recreation areas 
and must hold gym classes in the halls. The libraries are stacked with 
warehouse overstocks.
    Good education can occur in an old building and, to be sure, we 
have dedicated teachers in Bridgeport providing wonderful experiences 
for their students. But they are fighting an uphill battle:
    <bullet> Students don't have access to the specialists they need. 
As a result, correctable learning problems become obstacles to 
learning. For example, I am currently working with a student who, I 
fear, will fall further behind in reading unless a speech problem can 
be corrected.
    <bullet> We have high teacher turnover, as certified teachers, 
especially in mathematics and science, can find higher paying jobs with 
better facilities in neighboring towns. In all, 100 of our 1,600 
teachers are not fully credentialed by the State of Connecticut.
    <bullet> Class sizes are held in line only by our union contract, 
and then only after an annual filing of a contract grievance. As a 
union leader, I shouldn't have to fight for something so clearly in our 
children's interests.
    <bullet> Students do not get the enrichment that strong art and 
music programs would bring.
    <bullet> We face a critical shortage of substitute teachers. When a 
teacher is absent, students are scattered into other classrooms, a 
practice that is disruptive to their learning and to the now 
overcrowded class to which they've been assigned.
    <bullet> Schools with no full time nurses must rely on teachers and 
administrators to distribute medications.
    The Senate knows what has to be done. The new education law 
included requirements to close the achievement gap for low-income and 
minority students. That is the gap between Fairfield and Bridgeport. 
You called for helping all students meet high standards, and for 
ensuring a highly qualified teacher in every classroom. Now, you must 
face the reality that you have set a goal for our Nation that will be 
achieved only with adequate resources.
    In Bridgeport, we already have three schools identified as in need 
of improvement. Three years ago, these schools were given additional 
funding from our State surplus. However, in the past 2 years, as our 
State has faced budget shortfalls, this funding has been cut 
dramatically. I fear that the new Federal mandates will only serve to 
hurt these schools more.
    Strengthening teacher quality also will not be possible without 
increased funding. In Connecticut, we have a statewide teacher training 
and mentoring program known as BEST. In the suburbs, one-on-one 
mentoring has helped many new teachers navigate the sometimes 
overwhelming first years in the classroom. In Bridgeport, however, lack 
of funding has made it difficult for BEST to work well. Our large 
turnover has left few mentors for new teachers. Individual mentors are 
assigned many new teachers, but are not given the time or resources to 
assist them.
    There are many complex, interlocking reasons for the disparity 
between the Bridgeport and Fairfield schools: the loss of industrial 
jobs in Bridgeport, the transient population, drug use, and racism may 
be on the list. I don't want to argue whether the fault lies with the 
parents, with society, or with our public institutions. I do know that 
the fault does not lie with the children. The daughter of a newly 
arrived immigrant comes into the world as innocent as the son of a CEO. 
Our challenge is to see that they have the same opportunities. The only 
way to meet this challenge is to guarantee resources to our most 
neglected schools.
    Senator Dodd has pointed out the gaps in current Federal 
assistance:
    <bullet> Title I fully serves only 40 percent of students eligible 
for assistance.
    <bullet> The Federal Government's commitment to special education 
remains significantly underfunded.
    <bullet> The President has proposed cuts in Federal support for 
high-quality teacher training, and a freeze for after-school, and 
bilingual educational programs.
    I urge Congress to provide the necessary resources, particularly 
for Title I, special education, and teacher quality programs. Without 
such help, you are simply setting schools like mine up for failure.
    Before I conclude, I would like to express my concerns about 
voucher proposals. Connecticut is rich in private schools, and my son 
attended a private high school affiliated with the university where my 
husband teaches. We cannot afford to take up to $4 billion of the 
Federal education budget and feed it into private schools. Instead, we 
should be using this funding, and more, to bring the resources of our 
inner city schools up to the level provided in the suburbs. Once 
Bridgeport schools have the same resources as Fairfield schools, I 
suspect you will not find many people looking for vouchers.
    I hope you and your fellow Senators will provide the leadership, 
and yes, the budget, to equalize the educational opportunities between 
our poorest and richest communities, whether they are separated by a 
small river in Connecticut, or are miles apart.
    I would like to thank you for your time and, in particular, thank 
Senator Dodd for his commitment to education.
    Thank you.

    Senator Dodd. Thank you very much, Ms. Lang, and I thank 
all of our witnesses. It has been excellent testimony, and I 
think it will help the committee as we grapple with this 
problem.
    I will set the clock on us as well so we do not go over 
time, and I will be able to move along and give my colleagues a 
chance to raise some issues as well.
    Senator Enzi. May I just make a comment since I am going to 
have to leave?
    Senator Dodd. Certainly.
    Senator Enzi. I wanted to be able to hear the live 
testimony of the witnesses. I had the opportunity to read their 
testimony, but often, as in this case, some things came up that 
were very helpful in this discussion.
    I do have some questions for each of you, and I would hope 
the record could remain open so that I could get those, because 
it is some additional information that will help us in our task 
of trying to reach this equality across the Nation.
    Senator Dodd. Certainly.
    Senator Enzi. My daughter is a teacher, and her first job 
teaching was not in Wyoming. After she got a job in Wyoming, 
she had me come to see her classroom. She went over to a 
cabinet, opened it up, and said, ``Look at this.'' I looked at 
it, and I asked, ``Exactly what am I looking at?''
    She said, ``Chalk. I did not have to buy my own chalk.'' 
That is something that should not happen at all in this 
country.
    She was out here, and we were doing some traveling, and she 
asked me what one of the buildings was, and I said, ``That is a 
school,'' and she said, ``Oh--I thought it was a warehouse.'' 
And that could be a pretty close definition.
    So there are some things that need to be changed, and I 
appreciate having all this expertise today that can help us 
make those changes, and I appreciate the effort that you have 
put into coming up with some solutions, and we will see how we 
can work together on it.
    Senator Dodd. Thank you very much, Senator Mike Enzi. I 
appreciate that very much.
    Just as Senator Enzi is leaving, I will say that I go each 
year with my sister to Home Depot, where we buy boards and 
cinderblocks, toilet paper for her classroom and bathrooms. And 
this is in the most affluent State in America, the most 
affluent country in the world.
    But, that goes on every day. What Senator Enzi's daughter 
does, teachers do all across the country every year, and I 
guess it is surprising to a lot of people that this happens 
with the frequency that it does.
    Let me begin, and if I address a question to someone on the 
panel, I do not want anybody else to feel that they cannot 
respond. I would like to engage in a conversation with all of 
you.
    One of the problems in these school finance cases as I look 
at them across the country is they will reach a decision, 
Wyoming being an exception, I think, and now maybe Maryland as 
well--but I know that in Connecticut, we go back to the Horton 
case and the Sheff case, and we get decisions, and then the 
implementation of the decisions, with the practical, political 
difficulties--and I am not insensitive to them--my State is 
very small, but we have 169 municipalities--is not so simple.
    Mr. Rebell, let me begin with you. Even when plaintiffs 
win, it seems as though there is no win. Whether you like the 
decision or not, it just seems that after a number of years, we 
are still talking about the problem despite court decisions, 
whether you agree with them or not.
    I wonder if you might share with us some thoughts on how 
some decisions are just outright ignored by State officials 
when they are reached. What can be done? What do you think the 
Federal Government ought to do to support the enforcement of 
positive decisions? Otherwise, it becomes rather futile. If our 
courts are unable to follow up on the decisions, they may begin 
to get discouraged about even taking that route--which may 
reflect some of the reason why here, there is some desire to 
work politically, so we can start seeing these decisions bear 
some fruit?
    Mr. Rebell. Senator, I think you have put your finger on 
one of the core problems here. The courts have done a marvelous 
job in all the States, focusing on the problems. Taking the 
Sheff case in Connecticut as an example, I think some of the 
insights on the problems of inner city minority students that 
came out of that decision are just classic. It is in some ways 
the strongest decision since Brown v. Board of Education. But 
as you indicated, it is 7 years since that decision, and little 
if anything has happened in Connecticut.
    I think one of the problems here is that State courts tend 
to be a little bit reluctant to intervene in ongoing political 
matters with the legislature. In that, they are really taking 
the legacy of some of the Federal courts' attitudes in school 
desegregation cases. I an not sure that that is the best 
analogy. I think that State courts work differently; I think 
they have different responsibilities, and they can be a little 
bit more proactive.
    In general, I think you can categorize the 25 or so States 
where courts have issued decrees favorable to plaintiffs into 
three basic categories. One is the category of deferring to the 
legislature without providing any specific mandates to the 
legislature. That was true in Connecticut in the Sheff case, 
and it has been true in many other areas. And the feeling there 
is that, for separation of powers reasons, the courts want to 
leave it to the legislature.
    Unfortunately in this area, when you leave it to the 
legislature, it is kind of putting the fox in charge of the 
chicken coop, if you do not mind my saying so, because the 
power dynamics in State legislatures quite frankly tend to 
favor the affluent suburban areas. That is how we got these 
finance systems set up this way in the first place. So that 
usually, that tends to lead to inaction and further contempt 
motions and so on.
    On the other end, there have been a number of State courts 
in West Virginia and some other areas that have attempted to 
write new formulas, that have attempted to micromanage, and 
that is beyond what courts should do.
    But increasingly in recent years, a number of the State 
courts have taken a middle road, and they have been issuing 
basic guidelines that outline the constitutional course, and 
without micromanaging, they do make it clear to the State 
legislatures that action is expected and the general type of 
action.
    When you ask where the Federal Government fits in here, I 
think that that kind of general guidance that indicates the 
direction that needs to be taken without micromanaging specific 
details is appropriate and necessary. And this costing-out 
route that I mentioned, which actually is learning from the 
experience of States themselves--it is States like Wyoming, 
Massachusetts, and Maryland that have pioneered in this area--
those kinds of guidelines can really be the most helpful at a 
remedy stage in any of these litigations.
    I think that if this committee and your House colleagues 
gave some consideration to some of these guidelines, some of 
these methods that have worked in these cases and considered 
putting those as incentives in the No Child Left Behind Act 
amendments, that would be a great help to the State courts.
    Senator Dodd. Yes, Ms. Catchpole.
    Ms. Catchpole. As we talk about Wyoming, I think it is 
really important for you to understand--and this is one of my 
great concerns about the Federal Government passing legislation 
that would immediately be a silver bullet that would fix the 
system--that we have spent 7 years, and we have learned a lot, 
we have studied the executive branch, the legislature, the 
court system. We have been back again and again to get it 
right. And to think the one sweeping Federal law is going to 
work, saying one size fits all, makes me very nervous, because 
I am concerned that you do not understand the difference 
between Pennsylvania and Wyoming.
    Senator Dodd. I do not think anyone has made that 
recommendation. I know that get said about it here a lot, but I 
know of no one who believes that one size fits all.
    Ms. Catchpole. Great, great. Bless you for that, because it 
does not.
    Senator Dodd. We understand that. That is clear.
    Ms. Catchpole. When you talked about the implementation, 
what we learned was that when we only talk about the inputs, 
the dollars that go in, and we do not in-hand talk about the 
outputs, the results that we want for students--we spent a lot 
of time in Wyoming negotiating that, and we came from a 
locally-controlled State, where local school boards made the 
decisions, with very little intervention except for flow-
through money, both with Federal dollars and with State 
dollars, and until we clearly identified what we wanted all 
children to know, and how we would know if they know it, we 
were not able to determine what the cost for that would look 
like for any given child living anyplace in Wyoming.
    So my plea to you would be that with No Child Left Behind, 
you have put heavy, heavy responsibilities on States to do this 
right.
    To add something else on top of that, before we have 
figured out how we are doing on hitting those targets, where is 
it that we need help--is it that we need help with more 
dollars--that could be it; it could be that we need more 
technical assistance, that we need more staff development, that 
we need more parent involvement--to simply try to figure out 
which of those things we need, and I say it will vary in 
Riverton, WY what they need as compared to Cheyenne, WY. So to 
go back and do one major thing, I would really urge you to let 
us play out Leave No Child Behind and figure out from that what 
it is that the Federal Government can do to help us target our 
most needy students.
    Senator Dodd. Mr. Price, you wanted to make a comment.
    Mr. Price. I would just add that I certainly think the 
Federal Government ought to fulfill the appropriations 
expectations that were created a couple of years ago.
    Second, I do think that it is useful to reframe the 
conversation from equalization, which may take away from 
Fairfield, to what does it take to leave no child behind, and 
to figure out what it costs to implement interventions based on 
research and experience, and to go beyond thinking that one 
method is going to work.
    I really do think we have got to look at restructuring and 
reconceptualizing our schools, because I think the big, mammoth 
middle school and high school is an anachronism, and a lot of 
our kids today are not going with them. What does it take to 
create a bunch of small schools? What does it take to provide 
really high-calibre professional development, relieve teachers 
from having to be in the classroom six periods a day so that 
they can engage in the kind of development and growth.
    And finally by illustration, we know that youth development 
programs after school make an enormous difference in the lives 
of kids. What would it take to fully fund youth development 
programs for kids in Bridgeport, in New Haven, and so on, and 
see if we cannot implement all that we know, figure out what 
the price tag is, and then have a conversation in this country 
about how serious we really are about leaving no child behind. 
And I think the Federal Government should lead that 
conversation and should force that issue.
    Senator Dodd. I want to turn to Congressman Fattah for some 
questions, but when I ask an audience at home what percentage 
of our Federal budget do you think we commit to K through 12, 
you can imagine the answers I get, but I will promise you that 
none of them is that as a percentage of the Federal budget, it 
is less than 2 percent. Everyone thinks it is much more because 
they are familiar with their State or local budget, where they 
know it is such a large share.
    It may have made great sense in the 19th century, when the 
impact of education was local, and more than adequately met our 
needs, but, what many of us are saying now is that we ought to 
be a better partner, the Federal Government. Too often, people 
become scared when they hear about partnerships, but we really 
ought to be a better partner. There is just no other way to 
describe this when you talk about the national security needs 
of a Nation and the disparity that exists. So one of the 
questions has to be how do we get there.
    I think Senator Kennedy earlier mentioned the Morrill Act, 
and we are trying to conceive of some new way to take the 
Morrill Act--I am sorry that Senator Enzi is not here right 
now, because he would relate to it very directly--it was the 
Senator from Vermont during the Civil War who asked this 
Congress to support the notion that the moneys we received from 
the sale of public lands in the West would be used to develop a 
land grant college system all across the Nation. There are many 
land grant colleges--the University of Connecticut is one of 
them--that began with that very national idea in the mid-part 
of the last century that we would have to provide a resource at 
the national level to educate people. And certainly, we have 
seen it with the GI Bill and others.
    The one area where we seem to get very shy about it all of 
a sudden--if you had to graph this out, if you asked a teacher 
or a parent if they wanted to influence a child at any point in 
his or her life, when would you do it, everyone says zero to 3, 
or by the third grade, you can do so much. We must do more.
    So if we can, I want us to get away from the notion that 
this is Uncle Sam trying to make one size fit all. I hear that 
all the time, but I do not know of a single Member of Congress 
who subscribes to that notion. I will come back to this later.
    Chaka, let me turn to you.
    Mr. Fattah. Let me first thank all the witnesses, and to 
the president of the Urban League, it is a pleasure to see you 
again. The vice chair of your board, Dr. Bernard Watson, is 
from Philadelphia, and years ago, he wrote a book titled, ``In 
Spite of the System,'' that dissected this whole question of 
public education and showed then what we are talking about 
now--that is, that poor kids get the least of everything that 
we know as a Nation they need in order to get a quality 
education, and then we stigmatize them for not performing. We 
act as if they are not motivated, or that their parents are not 
motivated, or they are not capable of learning. But his point 
in his book, which is more than 20 years old now, was that if 
you were looking for a science lab in a large urban school 
district like Chicago or New York or Philadelphia, and you went 
to a neighborhood high school, you would be hardpressed to find 
a science lab of any kind that was up-to-date then, and the 
same is true now--and then we want to determine whether 
children have measured up.
    In fact, States that underfund these schools then use the 
testing that is the result thereof to deny admission of many of 
these children to State universities. And it is not a matter of 
race. This is across the board. The Vermont Supreme Court and 
the New Hampshire Supreme Court have found that these systems 
deny opportunity to low-income children to get an adequate 
education.
    In Wyoming, you have about one counselor for every 250 
students. That is really close to what the national 
recommendation is. I can take you to Camden High School in New 
Jersey, right outside Philadelphia, and they have the least 
access to counselors of any high school in the State of New 
Jersey. It happens to be in the poorest city, in the poorest 
neighborhood, and more than 1,000 of these children have one 
counselor to negotiate.
    We have counselors in some districts in our country who 
have to meet with students in groups because they cannot give 
individual attention. One high school with 1,300 kids has three 
counselors, so they do not even try to have individual meetings 
with students.
    So the question is not whether we add additional Federal 
funds. The question is that when it comes to poor children, 
since no State has shown its own enthusiasm, its own 
willingness, historically or presently, to educate these 
children at least to the level that they are educating other 
children, who is it in our society that is going to make some 
demand, provide some encouragement, provide the impetus to say 
to these State governments that poor children can no longer be 
treated as second-class citizens, and they deserve an equal 
education. That is, if you have, for instance, in the State of 
Maryland, 6 percent of the teachers who are not certified, it 
is not acceptable to have 36 percent in Baltimore City. You 
cannot have 125 kids there having access to AP courses where, 
in the suburban county of Montgomery in Maryland, 5,000 kids 
have access to AP; or if you go to Compton High, you have no 
AP, but at Beverly Hills High, you have 22 AP courses.
    At some point, whatever we are providing to others, we 
should be prepared to provide to these children, that is, to 
whatever level you are providing it in your high-achieving 
districts--and someone has to make a demand.
    So my question to the panel is who is it, if it is not the 
Federal Government, that is going to make this demand on 
States. And I do not buy into this notion that there is no 
Federal role. I reference in my bill as one of the findings in 
the new language that each of these States, in order to join 
the Union, had to make an irrevocable commitment to provide for 
a public education. So this notion that has been offered by 
many of my more conservative colleagues that there is no 
Federal role, there is no Federal responsibility, there is no 
Federal nexus to the question of whether these kids learn or 
not, I reject, and I use as the basis those documents dated in 
some cases 200 years ago, in which in order to become a State 
in this Union, these States had to make this commitment to 
provide a public education, to set aside land, and to make an 
everlasting commitment to provide public schools.
    Mr. Price. One of the blessings of the American system is 
that when there is a convergence of an economic imperative and 
a moral imperative, we actually get something done.
    For many, many years, the disparity in education that 
Jonathan Kozol and many others wrote about was a moral outrage, 
was a shame, but we did not do anything about it. As the 
economy has evolved to the point where 85 percent of all jobs 
are skilled or professional, and you cannot be a factory worker 
handling wireless handheld computers, managing inventory, or 
you cannot be a telephone operator unless you know how to 
access a computer, which means that you have got to be able to 
read and solve problems, there is now a convergence, and our 
productivity and competitiveness is at stake now.
    I think that that is a Federal issue, and with the level of 
mobility that we have in our country, with so many people 
reared in one State, one town, moving to another State, another 
town, I think that the entire country has a stake in the 
quality of education in every community in this country, and as 
you heard me say, I think that you as legislators have to 
decide where it all sorts out and settles out.
    I agree with you that the Federal Government needs to be 
pushing very hard, and I think the business community needs to 
be pushing very, very hard, and what the final resolution is 
and what the language is that everybody can live with--but I 
know that we did not move this ball until we began to realize 
that the economic imperative converges with the moral 
imperative.
    Mr. Rebell. If I could just add an additional dimension to 
this, one of the things that has come out of this range of 
State litigations is a renewed focus on the purposes of public 
education. It is very interesting that virtually all of the 
State courts that have tried to answer this question directly 
have basically agreed that the two primary purposes of public 
education in the United States are preparation for the economic 
workplace, as Mr. Price has pointed out, and the second is 
preparation for citizenship. And most of the State 
constitutional clauses, as you may know, were written in the 
19th century. They came out of the Common School movement and 
the commitment to democratic schools that began then.
    So I think we are seeing a convergence of understanding of 
the purposes of education. Interestingly, if you tie in the 
standards-based reform movement that has also accompanied these 
litigations, we are also beginning to understand the level of 
skills in particular areas, including the cognitive abilities 
to function adequately as citizens--having the analytic ability 
to be a competent voter, or a juror, is an understanding of the 
outcome of education that we did not have years ago.
    I want to bring this back to your point about the Federal 
Government, Congressman. As most of you know, the United States 
Supreme Court looked at this issue of inequities in funding 
about 30 years ago in the Rodriguez case and decried the 
inequities in Texas where that case came from at the time, but 
held that because education was not a fundamental interest 
under the Federal Constitution, it really was something that 
had to be left to the States; and that started this whole 
movement of State litigation.
    But I just want to bring to your attention one very 
interesting quote from Justice Powell, who wrote for the 
majority in the Rodriguez case. He said: ``The electoral 
process, if reality is to conform to the democratic ideal, 
depends on an informed electorate. A voter cannot cast his 
ballot intelligently unless his reading skills and his thought 
processes have been adequately developed.''
    This was in response to Thurgood Marshall in dissent, 
saying that the First Amendment to the Federal Constitution 
guarantees some level of adequate education. And Justice Powell 
and the majority agreed with him, but they said on the evidence 
in that case that they assumed that kids in Texas were getting 
an adequate education that gave them this level of skills 
because nobody disputed it. That case talked about the 
inequities in funding; they did not get into these adequacy 
questions of what kids were actually learning and what was 
coming out of the system.
    Thirty years later, we focused on those questions. We know 
what kids are learning or, in many areas, what the are not 
learning. We know what skills they have or do not have. And 
quite frankly, I think we are understanding that too many kids 
do not have these very skills that the Supreme Court assumed 
were the adequacy base.
    So I think we are coming back to a Federal perspective here 
and a national understanding that in terms of preparation for 
the economic workplace and in preparation for sustaining our 
democracy in the 21st century, kids have to have a certain 
level of skills, and that is a national concern, it is clearly 
a Federal concern as well as a State concern.
    Senator Dodd. Just picking up on this point--and it is an 
excellent point--a few days ago, I was with a group of mayors 
in Connecticut--and one of them said to me: ``You know, you 
guys in Washington really kill me. The President cuts taxes, 
the Congress cuts taxes, the Governor cuts taxes, the State 
legislature cuts taxes, and it all falls down here on the local 
level. So you all are reducing your commitment, and we cannot 
get away with that, because all the cost ends up here.''
    It is very difficult at a local level where the rubber hits 
the road for the people who serve as mayors, and boards of 
education and the like, to meet these responsibilities.
    We have not dwelled on this, because today's subject matter 
was a bit different, but it relates to it, obviously. I voted 
for the No Child Left Behind Act, but I did so--Ms. Catchpole, 
I will tell you--because in part, there was a strong commitment 
from both sides to meet the financial obligation of the 
mandate.
    I am working now on an election reform bill, and I am 
working with Congressman Fattah on this issue. We are going to 
have some minimum requirements in Federal elections. I have 
insisted that any time there is a minimum Federal requirement, 
there had better be a dollar figure behind it to support it. In 
special ed, we are seeing it. When I go home and meet a mayor, 
believe me, I get one message--special education--particularly 
in smaller towns, where children who have very severe special 
education needs can distort a small local budget that it is 
difficult, and also puts great pressure on these families and 
children. And that should not happen at all, that a child who 
is born with a particular disability is targeted because of the 
local budget, and we are far short of the 40 percent commitment 
that we made back when we passed the legislation.
    Most recently, with the testing requirements--and I do not 
argue with the need to test; I have some concern knowing that 
some States are already doing a pretty good job of testing, and 
I worry about schools becoming test prep centers. We had a 
hearing here the other day on obesity, with Senator Frist, 
Senator Bingaman and myself, on particularly the tripling of 
the incidence of obesity among kids. And what is happening? You 
have fast food producers, soft drink producers, who offer 
literally millions of dollars to school districts that are 
impoverished and cannot get their money if they can have 
exclusive rights to put these non-nutritious food and drinks 
into their schools, demanding in fact, that they be available 
during school hours, in order to get the resources they need. 
And what happens, of course, is that kids are gobbling up this 
stuff. In fact, in one school district, the superintendent 
wrote the principals because they were not meeting the targets 
for the consumption of a soft drink in order to meet their 
contractual obligation to get the money.
    So here we are, not only where nutrition seems to be 
diminishing, but schools cut back on physical education 
programs, sports programs, and so forth, because the crunch is 
so severe. And now we are going to have testing mandates every 
year. I hope we will be able to get some resources, but as of 
right now, the local districts in Wyoming and the local 
districts in Connecticut are going to get hit with a heck of a 
price tag to meet the Federal requirement in this area. I 
supported it, but I did so because both sides agreed reforms 
were going to have resource allocations to match the mandates. 
I do not want to digress too much on that point, but it is one 
that we are going to hear about and further exacerbate, I am 
fearful, the very bad situation we see today with the lack of 
alignment in these areas.
    Ms. Lang. I would just like to comment about the testing, 
especially putting more money into it. Connecticut already has 
an extensive testing program and uses it to identify children 
in need and provide services to those children.
    I just do not want to see any more Federal money used to 
create more tests that will further influence how the school 
day is spent, because a lot of time has to be spent preparing 
for testing so that we succeed enough to not be identified as a 
priority schools.
    Senator Dodd. And as Congressman Fattah pointed out, if we 
are not simultaneously giving enough resources.
    Mr. Fattah. I have a new term of art that we are going to 
use.
    Fundamentally, kids have to have a teacher, they have to 
have a textbook, they have to have access to a library and a 
guidance counselor. So this new term of art, we are going to 
start from today, which is ``fundamental.'' We are going to 
move beyond ``adequate,'' and we are not going to ``equal,'' 
but at least a fundamental baseline that kids need.
    Mr. Chairman, before we wrap up--I have to go to the 
caucus--I want to thank you again, and I wanted to ask the 
teacher from your State--the Carnegie Foundation has done a lot 
of work on this question of teacher quality, and one of the 
things they found, which is the most fascinating to me, is that 
the question of whether a child gets a qualified teacher or not 
is very, very important to how well they do.
    In fact, they found, after spending millions and millions 
of dollars studying this, that in actuality, it is worth about 
50 percentage points on national norm tests whether a child 
gets a qualified teacher or not for 2 consecutive years. So 
that children who are now scoring in the 30th percentile on 
these national tests could be scoring in the 80th percentile, 
not because of their ability but because of our inability to 
put in their classroom someone like you--that is, a qualified 
teacher.
    So that all of this discussion about low-performing 
students and failing schools and all of this, at the end of the 
day, if we do not do something to create a circumstance in 
which we provide the basic fundamentals so that children can 
receive an education, we are really creating a contradiction in 
which--as I talked to the President, I was burdening him with 
my point of view on this, and I was explaining that when he ran 
the baseball team, the way the baseball league works is that 
each team gets the same number of players, they all have the 
same number of bases they have to run, you have to hit the ball 
with a bat and see how far you can run around these bases--
these kids, like in the State of Texas, where you have school 
districts that are spending less than $4,000 per student and 
you have school districts that are spending over $20,000 per 
student, you cannot conceivably at the end of the day compare 
the results from that and act as if both sets of kids had been 
given a fair shot. It is just not intellectually honest.
    So we either have to put some asterisks next to these tests 
and say that ``Johnny never got a certified teacher, and this 
is his score,'' and over here, ``James got qualified teachers, 
and this is his score,'' or we are not being intellectually 
honest. At the end of the day, we either have to address the 
disparity or recognize it so that we can stop stigmatizing poor 
kids, because the fact that they are poor does not mean, and we 
know it does not mean, that they cannot learn. It is that the 
States have never indicated any willingness to give poor kids a 
fair opportunity, and it is only through litigation, decades of 
it, that we have made any progress in any of these States, and 
that progress has been overwhelmed by what has yet to be done, 
and hopefully, the great Senator here is going to help us get a 
lot more done, working with me on this new venture where we try 
to lay out some basic parameters that we can measure States by 
so that we can have a report card that indicates how the 
grownups are doing in terms of providing kids with a fair shot.
    Senator Dodd. Senator Enzi has indicated a willingness to 
work with us on something as well.
    Let me ask three quick questions of the panel, and some of 
them are pointed to individuals, but I would like all of you to 
comment.
    I wonder if you might pick up, Mr. Rebell, on the issue you 
commented on, the courts and the historical genesis of the 
Rodriguez case and going forward. In your opinion, are there 
actions being brought now in Federal courts around the country, 
at the district level, that may be moving through the system, 
possibly reassessing the Rodriguez case, so that you may end up 
with the adequacy test being challenged?
    Mr. Rebell. There really have not been, Senator. I think 
some of these concepts about citizenship preparation have begun 
to come forward in the State cases. That would be the next 
logical step, I guess, if the plaintiffs are not satisfied in 
the State courts. So far, plaintiffs have been doing pretty 
well in the State courts in the last 10 years--they have been 
winning about two-thirds of the cases--so there is less 
pressure in the Federal direction.
    There has been some Federal litigation on the Title VI 
point about these disparities that we are talking about 
possibly being in violation of Title VI the 1964 Civil Rights 
Act, but because of the Supreme Court's decision in the 
Sandoval case about a year ago, which denied a private right of 
action, I would not expect that those are going to see their 
way to the Supreme Court.
    Mr. Fattah. But there are three Federal cases. That is, 
there are 30 rural districts in Kansas that have filed a 
Federal case----
    Mr. Rebell. Those are all Title VI cases.
    Mr. Fattah. And they are all Title VI cases. But the 
Florida election issue, interestingly enough, may give some 
more opportunities here. That is, in the precincts with the 
most spoiled ballots out of precincts that correlate with 
educational attainment levels at the lowest in the State, and 
this whole issue of citizenship appropriately before the 
Supreme Court might give some opportunity to review the 
Rodriguez decision.
    Mr. Rebell. It is an area of real potential, but it has not 
been tapped yet.
    Senator Dodd. Yes. I appreciate your mentioning 
citizenship. Senator Pete Domenici and I authored a number of 
years ago the character education proposal. It started out with 
about $5 million, and last year, I think the Congress 
appropriated $25 million. It is a grant program for States, but 
it has been interesting the number of States that have applied 
for these grants to promote character education and good 
character education. There is a real appetite for it out there, 
because people see kids coming to a school system ready to 
learn but not particularly in these areas. So filling in what 
good citizenship means and basic principles is something that 
clearly, parents and teachers and others see a need for, which 
brings me to an issue that you addressed--I think Mr. Price 
raised it--and that is the issue of child care.
    Having written the Child Care and Development Block Grant 
some 16 years ago with Senator Hatch, and we are now trying to 
argue for additional funds with the welfare reform proposals, 
78 percent of parents with children of school age are in the 
workforce; 65 percent of parents with children under the age of 
6 are in the workforce; and 50 percent of women with infant 
children are in the workforce. And those numbers are going up 
all the time.
    I am so glad you mentioned quality, because accessibility 
and cost are obviously important, but maybe Ms. Catchpole and 
Ms. Lang could comment on this. I know from hearing from my own 
sister, and I know from the survey done of kindergarten 
teachers, that kids are just not coming to school ready to 
learn. They are seeing a huge gap in terms of their ability to 
start. So when we start testing kids very quickly, we are 
finding out that they are not ready to learn in that K class, 
and the quality of child care in terms of being any kind of 
place where those fundamental developmental skills are being 
nurtured at all seems to be lacking tremendously.
    I wonder, Ms. Lang, if you are seeing anything like this or 
would like to comment on the validity of that particular point.
    Ms. Lang. Certainly, children are coming to school with 
more severe problems than we have seen in the past. As we 
expand our pre-K opportunities and our parenting birth-to-3 
programs, there is an opportunity for improvement. But right 
now, there is a big difference from 20 or 30 years ago when I 
first started.
    The quality of child care is very important. We cannot 
spend our money foolishly to support pre-K programs that are 
not run by certified teachers and that do not have quality 
curricula.
    I just wanted to respond to Congressman Fattah's 
frustration with qualified teachers, because that is a huge 
frustration for us in Bridgeport. One of our high schools 
starts every day down 16 teachers; they have never filled those 
classes all year long. And until we raise teachers' salaries to 
attract better teachers----
    Senator Dodd. Aren't we the highest in the country, or 
almost the highest, in terms of what we pay our teachers?
    Ms. Lang. But the disparity between the urbans and the 
suburbans is great, and what happens is----
    Senator Dodd. Can't we attract some teachers out of Wyoming 
who might want to come out here?
    Ms. Lang. Yes, yes, we could--but what happens is that we 
get some great teachers into Bridgeport, we work with them for 
3 or 4 years, and if you can teach in an inner city, you can 
teach anywhere. So then, the suburbs come in, and they 
literally raid our teacher pool. Teachers get phone calls at 
home: ``I hear you are a wonderful music teacher. Come and 
teach for us. We can give you $10,000 more.''
    Mr. Fattah. In Philadelphia, if you are a math teacher, and 
you get your 3 years' experience in Philadelphia, you can go to 
the suburbs and make twice as much teaching half as many kids, 
and 15 minutes away. So it does not take a rocket scientist to 
know what the final deal is going to be in terms of holding 
onto these teachers.
    Senator Dodd. Ms. Catchpole.
    Ms. Catchpole. Mr. Chairman, I am so delighted that you 
brought up the early childhood issue, because I truly believe 
that regardless of the State--currently, we are testing in 
fourth, eighth, and eleventh, and our fourth grade test would 
parallel the gap of children who are coming to kindergarten not 
ready to learn.
    The exciting thing that I have found in my 8 years as 
superintendent is the awareness now of people like you, the 
United States Congress, and State legislatures, who have paid 
attention to the brain research that is available, who have 
paid attention to the importance of early learning in those 
early years. That was nonexistent 10 or 15 years ago. So I 
commend you for your efforts to talk to parents about the 
importance.
    I was driving through Wyoming recently and heard a national 
advertisement to parents on the importance of music, art, the 
kinds of things that enrich the lives of young children. So I 
think that we are partners cannot do enough to emphasize to 
parents, to communities, everyone, about the importance.
    I never give a speech in Wyoming, whether to the Rotary 
Club or to a school, that I do not say ``please take a look at 
what is happening to the very young children in your community, 
and help us close the gap before they enter public school.''
    Senator Dodd. Parents are the best first teachers, but too 
often, the simple, basic things, obviously, like reading and 
music and so forth--but even just talking--prior to the 
hearing, I was telling Ms. Lang that my sister now at the 
Kennelly School in Hartford in early childhood development is 
now insisting--and this is so contradictory to everything we 
were taught growing up--one of the things she does now is have 
her kids talk in class for the simple reason that they are so 
inadequate in terms of their verbal skills coming in. She never 
thought she would see the day where she was actually promoting 
talking in class, and a lot of it is because she is convinced 
that they are in settings before they start school where there 
is no discussion--they are dropped in front of a television--so 
their ability to communicate has just fallen off tremendously, 
as she has, in her 30 years, particularly in the last 5 or 10 
years, seen a dramatic drop in children's verbal skills. And we 
know the direct correlation between a child's verbal skills in 
any language, by the way, and their ability to learn to read. 
So she sees it very dramatically and has seen a pronounced 
decline in the verbal skills of children coming in.
    I think a lot of it is that, obviously, with welfare 
reform, we want more people going out to work, but as we do 
that, obviously, we are creating a situation where we need to 
do more to promote accessible, quality child care, and if you 
are in a minimum wage job and part of the working poor, as so 
many kids are, you have 6 million infants in child care, 14 
million kids every day in a child care setting, so it seems to 
me we have a real job to do if we are going to have more work 
requirements, we are going to have to have a commensurate 
commitment to see to it that the quality of care of infants is 
improved dramatically.
    I wanted to raise one last question with you, Mr. Price. In 
your written testimony, you pointed out the correlation between 
the racial isolation in education funding and equity. I think 
that is indisputable. Aren't we also seeing significant 
inequities or inadequacies among schools with similar racial 
compositions?
    Senator Jeffords is not here, but in Vermont, for instance, 
which has few students of color, there are also inadequacies, 
or in Wyoming, where the significant number of racial 
minorities would be relatively small.
    Is that an accurate statement?
    Mr. Price. Absolutely. We look at the world initially 
through the prism of those we serve, but there is absolutely no 
question when you look at rural-suburban disparities, they are 
just as strong, reservation versus suburban disparities, just 
as strong. So I think there is a fundamental issue if we are 
going to leave no child behind, what does it take, what does it 
cost, and are we going to get about the business of doing it. 
And we are looking at this through our constituencies' prism, 
but it is a much broader issue.
    Mr. Rebell. Just to give you a statistic on that, Senator, 
in 1999-2000 in the State of Ohio, Cuyahoga Heights, which is a 
wealthy suburban district, had $16,000 per student in funding, 
and Tri Valley, a nearby rural area, had $4,500 per student. So 
it is an urban-rural issue that goes beyond race as well as the 
more focused racial issue.
    Senator Dodd. Yes.
    Mr. Fattah. It is well beyond race in terms of the 
disparities, but there are within it, however, certain 
pronouncements. When we talk about qualified teachers, the 
Carnegie report shows that no matter what the socioeconomic 
group, a qualified teacher raises scores, but the only 
correlation with race on this question of quality teachers, for 
instance, is that if you are an African American, you are the 
least likely person in our country to have a qualified teacher.
    So that not only do you have the inequality there, but you 
also have other issues that come into play in terms of getting 
to some of these other issues that we are concerned about. But 
I think that it is essentially at its core a denial of poor 
children an equal educational opportunity. It is not focused at 
race, even though it is more acute when we talk about Latino or 
African American students.
    Senator Dodd. I would point out that some States do have 
primarily State funding. Do you have State and local in 
Wyoming?
    Ms. Catchpole. State.
    Senator Dodd. Just State. In Connecticut, it is very 
significantly a local property tax.
    Ms. Catchpole. Some comes in, but it all comes in to the 
State.
    Senator Dodd. Yes, and then goes back out. I often point 
out that in Bridgeport--and these numbers might not be exactly 
right--but in our cities now--it used to be that a balanced 
taxing rate would have our city functioning with 30 percent of 
your revenues coming from residential property taxes and 70 
percent coming from commercial property taxes--in our cities, 
it is exactly the reverse now, that 70 percent of revenues are 
coming from residential property taxes and 30 percent from 
commercial. You are watching a decline of commercial activity, 
and the burden then rises on local property owners. So that a 
lot of the residents who live in these cities are only living 
there because they cannot get out. No one will buy their homes. 
They cannot leave. Given a choice where the housing cost may be 
less, the taxes as a percentage of the cost of that home are so 
much higher, and of course, the incomes are lower, and the job 
opportunities are nonexistent. So you get trapped in these 
situations.
    I do not know what it is in Fairfield, but obviously, the 
ratio is significantly different. Obviously, the costs are 
higher in Fairfield, but incomes are substantially higher. Do 
you know what those are off the top of your head?
    Ms. Lang. I do not know exactly, but I can tell you that 
Bridgeport's educational funding is 70 percent from the State. 
We only get 30 percent--and it is probably less than that, 
because we get some from the Federal Government, too. But most 
of it is State money, and that is the opposite in the 
suburbans. Most of their funding comes from their local taxes.
    Mr. Price. This is why, Senator, whether we call it a 
partnership between the Federal Government and the States and 
localities, or call it a mandate, or call it a mango, or call 
it a banana, the Federal Government has really got to lean on--
--
    Senator Dodd. We have got to be in on it, yes.
    Eighty-four percent of the American public in a recent 
survey felt that if, instead of 1.5 percent, the Federal 
Government put 5 percent of its budget to K through 12 
education, that would make sense, and if you did that, you 
would be increasing our commitment in this area somewhere 
between $18 and $27 billion. That is what it would get you--not 
that that is going to satisfy all the issues, but it would get 
you moving in the right direction, anyway.
    Mr. Fattah. Mr. Chairman, let me just say finally, before 
you conclude, because I want the record to be clear on this 
point, that I think it is a legal matter. None of these dollars 
that are being generated at the local level are local dollars. 
In every instance, the States determine by statute the 
boundaries of school districts, and they then have to authorize 
what taxes can be levied at the local level. There are, in 
fact, State taxes levied at the local level and then used as an 
excuse for the inequality. That is to say, States could have 
just as easily decided to use income taxes as a basis to fund 
schools, but as the Republican elected school superintendent in 
Arizona said more eloquently than I can, when you use a 
property tax-based funding, you allow the wealthiest 
communities to have the best-funded schools, to pay the least 
amount in taxes as a percentage of their real estate holdings, 
and you have the poorest communities pay the highest amount in 
millage and still underfund their schools; and then you are 
able as a State government to then argue that, well, we are 
trying to help these poor districts, we are giving them some 
extra help--it is just that these local taxes are unequal 
because some people are a little bit wealthier than others.
    States should not be let off the hook by arbitrarily 
deciding to use a taxing mechanism that confuses people and 
confuses the issue. What they should do, as they do for State 
troopers in their State--they pay them the same all around the 
State--and they pay their State legislators the same amount of 
money--there is a recognition of State action even when it is 
applied to what is called local taxation that I think the 
record should be clear about.
    Senator Dodd. Congressman, we thank you for participating, 
and I would ask our witnesses to take a look at your revised 
proposal.
    We will leave the record open for 10 days for any 
additional statements or questions from our colleagues.
    You have been four excellent witnesses, and I am very 
grateful to all of you. Ms. Lang, we always have a special 
appreciation for those who have been teachers, and you have 
done it for 3 decades. Congratulations on your elevation--I 
think we can call it that--promotion--you might have a 
different opinion a year from now whether or not that is the 
case.
    Ms. Lang. The jury is still out on that one.
    Senator Dodd. Mr. Rebell, thank you. Come back to New Haven 
any time you would like; and Mr. Price, the excellence of what 
you have done is in direct relationship to your education in 
Connecticut, so we want you to know that you are welcome to 
come back any time. And Ms. Catchpole, we thank you as well for 
being with us.
    This committee will stand adjourned until further call of 
the chair.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
  

                                <greek-d>

</pre></body></html>
